<html>
<title> - DEPARTMENT OF ENERGY SCIENCE AND TECHNOLOGY PRIORITIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                          DEPARTMENT OF ENERGY
                   SCIENCE AND TECHNOLOGY PRIORITIES

=======================================================================


                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
              
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 10, 2014

                               __________

                           Serial No. 113-72

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov
       
       
   
                         U.S. GOVERNMENT PRINTING OFFICE 

88-143 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001    

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              ROBIN KELLY, Illinois
KEVIN CRAMER, North Dakota           VACANCY
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio
                            C O N T E N T S

                             April 10, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    13

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    14
    Written Statement............................................    15

                               Witnesses:

The Honorable Ernest Moniz, Secretary, Department of Energy
    Oral Statement...............................................    16
    Written Statement............................................    18

Discussion.......................................................    41

             Appendix I: Answers to Post-Hearing Questions

The Honorable Ernest Moniz, Secretary, Department of Energy......    84

 
                          DEPARTMENT OF ENERGY

                   SCIENCE AND TECHNOLOGY PRIORITIES

                              ----------                              


                        THURSDAY, APRIL 10, 2014

                  House of Representatives,
            Subcommittee on Research and Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 9:07 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

[GRAPHIC] [TIFF OMITTED] 


    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Welcome to today's hearing 
titled, ``Department of Energy Science and Technology 
Priorities.'' And let me say to Members at the outset, and we 
don't have everyone here whom we expect to be here in just a 
few minutes because the Democrats have a caucus at 9:00, and we 
have several Members at that caucus and we hope that they will 
be here in a few minutes.
    But we are going to be a little bit cramped in time today. 
We have two votes. The first series of votes is at 10:00, in 
less than an hour. We will come back after that series for 
about 45 minutes. And then we have another series of votes 
starting at 11:00 that will take us through 12:15, and the 
Secretary needs to leave at 12:30. So we may have a very short 
hearing today from now until 10:00 and then from about 10:15 or 
10:30 until 11:00 or 11:15. So we will try to expedite the 
process here, but yet hopefully everybody who has a question or 
two will be able to ask those questions.
    I would like to welcome two Members to the Science, Space, 
and Technology Committee who are new Members. First is 
Representative Bill Johnson from Ohio's 6th Congressional 
District to my left, and Representative Katherine Clark from 
Massachusetts' 5th Congressional District, and she will be here 
momentarily. An engineer by training, Representative Johnson 
served 26 years in the United States Air Force, started his own 
high-tech business and ran a multi-million dollar department 
for a major electronics manufacturer. It doesn't hurt that he 
holds a Master's degree in computer science from Georgia Tech. 
He also joins Representative Thomas Massie on the Committee as 
a patent holder. Representative Johnson will serve on the 
Research and Technology Subcommittee and the Oversight 
Subcommittee as well, and we welcome Bill to the Committee.
    Mr. Johnson of Ohio. Thank you, Mr. Chairman. I am honored 
to serve.
    Chairman Smith. I wish she were here, but I will introduce 
her in her absence and that is that we welcome also 
Representative Katherine Clark from Massachusetts, joining us 
on the other side of the aisle here. She has a special interest 
in alternative forms of energy and no doubt will enjoy today's 
hearing, her first. I might also add there aren't many 
attorneys on the Committee. Katherine Clark is, and no doubt 
her Cornell law degree will enable her to cross examine 
witnesses, though I doubt she is too tough on today's witness.
    You know, come to think of it, that gives us two lawyers 
from Massachusetts including Joe Kennedy, which is definitely 
our limit.
    The Ranking Member, Ms. Johnson, is recognized for her 
comments about Representative Clark.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman. I 
would like to welcome Mr. Johnson as well. Ms. Clark was 
appointed to the Committee last week, and we have visited. She 
was a State Senator in Massachusetts before winning election to 
the House, and she is very interested in energy and education 
issues, and I look forward to working with her.
    And as I indicated earlier, every Thursday morning at 9:00, 
we have a mandatory attendance meeting, and she probably 
stopped there. Thank you.
    Chairman Smith. Okay. Thank you, Ms. Johnson. I will 
recognize myself for an opening statement and then the Ranking 
Member.
    The Science, Space, and Technology Committee has 
jurisdiction over civilian science and technology issues at the 
Department of Energy. These areas comprise approximately one 
third of DOE's budget or over 9 billion dollars. Our 
jurisdiction includes the DOE's Office of Science which 
conducts critical research in areas like high energy physics, 
advanced scientific computing, and basic energy sciences. Our 
jurisdiction also includes research and development in fossil, 
nuclear and renewable energy.
    I want to thank our witness, Secretary Moniz, for joining 
us today. We last heard from Dr. Moniz in June, and we want to 
thank him for continuing our tradition of hearing from the DOE 
Secretary on budget priorities.
    Dr. Moniz has a deep knowledge of energy issues, 
particularly the scientific and technical issues that are a 
focus of this Committee. Although we may disagree on some 
priorities and on overall budget numbers, one thing we can 
agree on is how critical DOE research has been to securing the 
United States' preeminence in many scientific fields.
    Scientists at the Department of Energy and in the private 
sector have consistently collaborated to create the most 
reliable, affordable and secure domestic energy portfolio in 
the world.
    The technological advancements in oil and gas extraction, 
and particularly hydraulic fracturing, were facilitated in part 
by DOE. These innovative technologies enabled the dramatic 
shale gas revolution that is transforming our economy. 
Technological breakthroughs and improved techniques have 
resulted in exponential increases in energy production. In my 
home State of Texas, production of oil has jumped from 400 
million barrels in 2009 to over 900 million barrels in 2013.
    The technological leaps in natural gas extraction have 
resulted in increased production and a decrease in natural gas 
prices. These innovative breakthroughs have also helped improve 
air quality, expand access to affordable electricity and 
created jobs. This increased production in oil and gas is 
exciting, but we also need to seek a balanced energy portfolio 
through a strategic approach to energy research and 
development.
    Although the Obama Administration claims it supports a 
balanced energy portfolio, its budget request shows a different 
set of priorities. For instance, while research and development 
for fossil energy programs remains stagnant, funding for 
renewable energy has increased exponentially.
    Lastly, we need to ensure that American tax dollars are 
spent wisely, and not on duplicative and overlapping programs. 
At a time of tightened budgets, we have to set priorities. Our 
first focus should be basic energy research and development. 
Breakthrough discoveries from basic research will provide the 
foundation for a secure, affordable and independent energy 
future.
    The Administration should not pick winners and give 
subsidies to favored companies that promote non-competitive 
technologies. This too often leads to a waste of taxpayer 
dollars.
    Instead, we should focus our resources on research and 
development that will produce technologies that will enable 
alternative energy sources to become economically competitive 
without the need for subsidies.
    This is an exciting time for the United States. It is a 
time of abundant energy resources. The government has a role in 
promoting scientific discovery in various energy fields, and 
basic energy research is the stepping stone to our continued 
success.
    [The prepared statement of Mr. Smith follows:]

             Prepared Statement of Chairman Lamar S. Smith

    The Science, Space, and Technology Committee has jurisdiction over 
civilian science and technology issues at the Department of Energy 
(DOE). These areas comprise approximately one third of the DOE's 
budget, or over nine billion dollars.
    Our jurisdiction includes the DOE's Office of Science, which 
conducts critical research in areas like high energy physics, advanced 
scientific computing, and basic energy sciences. Our jurisdiction also 
includes research and development in fossil, nuclear and renewable 
energy.
    I want to thank our witness, Secretary Moniz, for joining us today. 
We last heard from Dr. Moniz in June and we want to thank him for 
continuing our tradition of hearing from the DOE Secretary on budget 
priorities.
    Dr. Moniz has a deep knowledge of energy issues--particularly the 
scientific and technical issues that are a focus of this Committee. 
Although we may disagree on some priorities and on overall budget 
numbers, one thing we can agree on is how critical DOE research has 
been to securing the United States' preeminence in many scientific 
fields.
    Scientists at the Department of Energy and in the private-sector 
have consistently collaborated to create the most reliable, affordable 
and secure domestic energy portfolio in the world.
    The technological advancements in oil and gas extraction, and 
particularly hydraulic fracturing, were facilitated, in part, by DOE. 
These innovative technologies enabled the dramatic shale gas revolution 
that is transforming our economy. Technological breakthroughs and 
improved techniques have resulted in exponential increases in energy 
production. In my home state of Texas, production of oil has jumped 
from 400 million barrels in 2009 to over 900 million barrels in 2013.
    The technological leaps in natural gas extraction have resulted in 
increased production and a decrease in natural gas prices. These 
innovative breakthroughs have also helped to improve air quality, 
expand access to affordable electricity and create jobs. This increased 
production in oil and gas is exciting but we also need to seek a 
balanced energy portfolio through a strategic approach to energy 
research and development.
    Although the Obama Administration claims it supports a balanced 
energy portfolio, its budget request shows a different set of 
priorities. For instance, while research and development for Fossil 
Energy programs remains stagnant, funding for Renewable Energy has 
increased exponentially.
    Lastly, we need to ensure that American tax dollars are spent 
wisely, and not on duplicative and overlapping programs. At a time of 
tightened budgets, we have to set priorities. Our first focus should be 
basic energy research and development. Breakthrough discoveries from 
basic research will provide the foundation for a secure, affordable and 
independent energy future.
    The Administration should not ``pick winners'' and give subsidies 
to favored companies that promote non-competitive technologies. This 
too often leads to a waste of taxpayer dollars. Instead, we should 
focus our resources on research and development that will produce 
technologies that will enable alternative energy sources to become 
economically competitive without the need for subsidies.
    This is an exciting time for the United States. It is a time of 
abundant energy resources. The government has a role in promoting 
scientific discovery in the various energy fields. Basic energy 
research is the stepping stone to our continued success.

    Chairman Smith. That concludes my opening statement, and 
the gentlewoman from Texas is recognized for hers.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman, 
for holding the hearing today, and I want to thank the 
Secretary for being here to discuss the proposed DOE budget and 
for his continued service to our Nation. Over the past year I 
think that it has been proven that the President made a wise 
choice in selecting the Secretary to lead the Department at 
this critical time our Nation's history.
    Let me start by reminding or sharing with my colleagues 
here today that we have seen how government research can pay 
off when it comes to energy development. DOE-supported research 
was key to the development of high-efficiency gas turbines for 
coal plants, nuclear reactors developed at Federal labs and the 
directional drilling and the hydraulic fracturing practices 
that have led to the shale gas boom of today. But we should 
remember that those achievements required decades of Federal 
investments, the overwhelming majority of which was focused on 
fossil and nuclear energy. I continue to strongly support 
research to make today's technologies safer, cleaner and more 
efficient. But we also have to find the greatest value for our 
investment of taxpayers' dollars. Today it is the emerging 
energy technology sectors that I believe can most benefit from 
government support. That is where the priorities is set by the 
Fiscal Year 2015 budget requests come in today.
    I am pleased with much of the Department's budget request 
for applied energy research this year. If adopted, the Office 
of Energy Efficiency and Renewable Energy, ARPA-E, and the 
Office of Electricity would all receive a much-needed boost to 
advance the development of clean energy technologies that will 
be vital to our national security, our economy and the 
environment in the decades to come. This includes important 
targeted investments that will help place the United States in 
a position to be a world leader in advanced manufacturing 
related to energy use and generation.
    However, I do have concerns with other areas of the 
Department's proposed budget. For example, the Office of 
Science would receive a very minimal increase, less than one 
percent, which is even below the rate of research-related 
inflation. So this is effectively a cut. As we all know, the 
Office of Science is the largest supporter of basic research in 
the physical sciences in the country, and it operates more than 
30 national scientific user facilities whose applications go 
well beyond energy innovation. Our Nation's top researchers 
from industry, academia and other Federal agencies use these 
facilities to examine everything from new materials that will 
better meet our military's needs to new pharmaceuticals that 
will better treat disease to even examining the fundamental 
building blocks of the universe. Given this critical role in 
our Nation's innovation enterprise, I look forward to having a 
productive discussion about the justification for the 
Administration's proposed funding for the Office.
    Also, I recognize the Department is continuing to carry out 
several major demonstration projects using prior year funds to 
further advance our ability to capture and store carbon 
emissions from power plants. I also know that you recently 
issued a significant loan guarantee solicitation for new fossil 
fuels projects, but I would like to be clearer and like a clear 
explanation for the Department's proposed cuts to the carbon 
capture and storage research programs. Of course, demonstration 
projects and loan guarantees have a very important role in 
getting new technologies to the marketplace, but they are not 
necessarily replacements for the longer term, higher risk 
research activities. I fully understand that the Administration 
is working on a tough budget environment and that trade-offs 
and compromises have to be made. I look forward to working with 
you, Mr. Secretary, and my colleagues across the aisle to 
address the concerns we have and to work with you to ensure you 
have the direction, tools and resources you need to keep secure 
our Nation's energy future.
    Mr. Chairman, before I yield back, I want--well, she hadn't 
come in yet. I wanted to introduce our new Member, but she has 
not yet arrived. So thank you.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Thank you, Chairman Smith for holding this hearing. I would also 
like to thank Secretary Moniz for being here today to discuss the 
proposed DOE budget and for his continued service to our nation. Over 
the past year, you have proved that the President made a wise choice in 
selecting you to lead the Department at this critical time in our 
nation's history.
    Let me start by reminding my colleagues here today that we have 
seen how government research can pay off when it comes to energy 
development. DOE-supported research was key to the development of high-
efficiency gas turbines for coal plants, nuclear reactors developed at 
federal labs, and the directional drilling and hydraulic fracturing 
practices that have led to the shale gas boom of today. But we should 
remember that those achievements required decades of federal 
investment, the overwhelming majority of which was focused on fossil 
and nuclear energy. I continue to strongly support research to make 
today's technologies safer, cleaner, and more efficient, but we also 
have to find the greatest value for our investment of taxpayer dollars. 
Today it is the emerging energy technology sectors that can most 
benefit from government support. That is where the priorities set by 
the Fiscal Year 2015 budget request come into play.
    I am pleased with much of the Department's budget request for 
applied energy research this year. If adopted, the Office of Energy 
Efficiency and Renewable Energy, ARPA-E, and the Office of Electricity 
would all receive a much-needed boost to advance the development of 
clean energy technologies that will be vital to our national security, 
our economy, and the environment in the decades to come. This includes 
important, targeted investments that will help place the U.S. in a 
position to be a world leader in advanced manufacturing related to 
energy use and generation.
    However, I do have concerns with other areas of the Department's 
proposed budget. For example, the Office of Science would receive a 
very minimal increase--less than one percent, which is even below the 
rate of research-related inflation, so this is effectively a cut. As we 
all know, the Office of Science is the largest supporter of basic 
research in the physical sciences in the country, and it operates more 
than 30 national scientific user facilities whose applications go well 
beyond energy innovation. Our nation's top researchers from industry, 
academia, and other federal agencies use these facilities to examine 
everything from new materials that will better meet our military's 
needs, to new pharmaceuticals that will better treat disease, to even 
examining the fundamental building blocks of the universe. Given this 
critical role in our nation's innovation enterprise, I look forward to 
having a productive discussion about the justification for the 
Administration's proposed funding for the Office.
    Also, I recognize that the Department is continuing to carry out 
several major demonstration projects using prior year funds to further 
advance our ability to capture and store carbon emissions from power 
plants. I also know that you recently issued a significant loan 
guarantee solicitation for new fossil fuel projects, but I would still 
like a clearer explanation for the Department's proposed cuts to carbon 
capture and storage research programs. Of course, demonstration 
projects and loan guarantees have a very important role in getting new 
technologies to the marketplace, but they are not necessarily 
replacements for longer-term, higher risk research activities.
    I fully understand that the Administration is working in a tough 
budget environment, and that trade-offs and compromises have to be 
made. I look forward to working with you, Mr. Secretary, and my 
colleagues across the aisle, to address the concerns we have and to 
work with you to ensure you have the direction, tools, and resources 
you need to help secure our nation's energy future.
    With that I yield back the balance of my time.

    Chairman Smith. Thank you, Ms. Johnson. Let me introduce 
our witness, and he is Honorable Ernest Moniz, Secretary of the 
Department of Energy. Prior to his appointment, Dr. Moniz was 
the head of the Department of Physics at the Massachusetts 
Institute of Technology where he was a faculty member since 
1973. Previously, Dr. Moniz served as Undersecretary of the 
Department of Energy where he oversaw the Department's Science 
and Energy programs. From 1995 to 1997, he served as Associate 
Director for Science in the Office of Science and Technology 
Policy in the Executive Office of the President. Dr. Moniz 
received a Bachelor of Science degree in physics from Boston 
College and a doctorate in theoretical physics from Stanford 
University.
    So Dr. Moniz brings both impressive academic credentials 
and practical skills to a very demanding job. Dr. Moniz, we 
welcome you and look forward to your testimony.

            TESTIMONY OF THE HONORABLE ERNEST MONIZ,

                SECRETARY, DEPARTMENT OF ENERGY

    Secretary Moniz. Well, thank you, Chairman Smith, and 
Ranking Member Johnson, Members of the Committee. In view of 
the schedule, I will try to shorten my opening statement.
    The top line discretionary budget request for Fiscal Year 
2015 as you know is $27.9 billion department-wide which is a 
2.6 percent increase, which in the current, very constrained 
budget environment, we take as an endorsement of the importance 
of our vey key missions in energy in science, in nuclear 
security, in maintaining the scientific base that you have both 
said is so critical to this country and of course, meeting our 
obligations to clean up the Cold War mess.
    Our budget is organized around our three undersecretary 
positions which we testified about last year. We have 
reorganized including, importantly I think for this Committee, 
combining the Undersecretaries of Energy and Science into one 
office, and I will come back to some of the benefits I believe 
we are seeing from that, a second in nuclear security, and 
finally, a new focus on management and performance which we 
consider to be essential. That is, improved management and 
performance essential to successfully carrying out our energy, 
science and nuclear security missions.
    On science and energy, which of course is the main focus 
today, I'd just reiterate that the all-of-the-above energy 
approach we believe is succeeding as the President said in his 
State of the Union, as you well know, producing more gas, more 
oil and yet driving down carbon emissions. Again, I will forego 
many of my specific comments. Note that the budget request in 
energy and science is $9.8 billion, which is a five percent 
increase within which we of course had to set priorities.
    A few highlights in EERE, I will note a strong commitment 
to advanced manufacturing, Office of Electricity, a commitment 
to leading a multi-program effort on grid modernization and at 
the same time increasing our emergency response capability, 
which we have as a responsibility under FEMA in responses.
    ARPA-E, we think it is working. We propose an increase. 
Twenty-four start-ups have emerged from ARPA-E, significant 
private capital following up, and I would note its 
entrepreneurial spirit. With each project we have assigned a 
tech-to-market advisor.
    The Office of Science, again, many initiatives. I will 
mention exascale computing as one that we feel is very 
important and emphasize once again, this is a cross-cut with 
about 2/3 of the funding proposed in the Office of Science and 
about 1/3 in NNSA as a collaboration, which I might note is a 
reversal of the 1990s with science now having the lead here.
    This theme of cross-cuts is one that draws upon our 
reorganization with science and energy coming together. I have 
mentioned a couple already. Others include subsurface science 
and engineering, which cuts across hydrocarbon production, 
CO<INF>2</INF> sequestration, geothermal systems, many issues. 
Our labs are very excited about this kind of integrated 
approach in the cross-cuts. And another one that will be 
emerging, we have just put our toe in the water this year and 
next year we hope to come back with a much stronger energy and 
water cross-cut which we think is going to be one of the key 
issues in the energy sector as we go forward.
    So nuclear security, again, I will just say there we have 
an $11.9 billion proposal, a four percent increase, looking 
both at reestablishing a fiscally doable approach to our 
nuclear stockpile, a safe and reliable stockpile without 
testing and advancing our nuclear nonproliferation programs, 
management and performance, and I should say Naval reactors, 
also a commitment there to some key developments that have been 
postponed for a while, Ohio-class replacements for example, 
spent fuel recapitalization projects.
    Management performance, $6.5 billion in that line, most of 
the budget for EM, and there I will just emphasize this 
provides an enterprise-wide focus for trying to improve our 
project management performance, and we believe it is paying 
dividends. One example, the waste treatment facility at 
Hanford, arguably the most complicated facility for clean-up, a 
new framework that has been agreed to with the state as to how 
we approach--a phased approach, much to work out yet in terms 
of milestones, et cetera. Secondly, another example in the 
nuclear security space, the uranium processing facility with a 
new Red Team approach, stick to our budget, phase it, key 
capabilities respected, but stay with budget discipline.
    So that, sir, Mr. Chairman, is kind of a few of the 
highlights, and I look forward to our discussion.
    [The prepared statement of Secretary Ernest Moniz follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    

    Chairman Smith. Okay. Thank you, Secretary Moniz, and I 
will recognize myself for questions.
    My first question goes to what you just mentioned and which 
the Administration has stated many times and that is that they 
have this balanced, all-of-the-above energy strategy. What I 
would like to do is put a chart on the screen for us to take a 
look at, and this chart will show the budget request by the 
Obama Administration since 2010.

[GRAPHIC] [TIFF OMITTED] 

    Chairman Smith. No one can read the fine print here, but 
let me interpret it for you. The blue bars indicate the request 
by the Administration for alternative forms of energy, and the 
red is the budget request for fossil energy. And it certainly 
appears to me to not be a balanced approach of all-of-the-above 
energy policy by the Administration when you have this kind of 
discrepancy between the money that the Administration is 
requesting for alternative forms of energy versus fossil 
energy. Would you agree with that assessment?
    Secretary Moniz. Well, Mr. Chairman, I believe that our 
requests do reflect all-of-the-above approach, and we are 
committed to fossil fuels, nuclear, renewables and efficiency. 
May I make two points? One has already been referred to by the 
Ranking Member, namely that of course, if you look at something 
like fossil, there are enormous resources in the demonstration 
and deployment arena with $6 billion for carbon capture and 
sequestration----
    Chairman Smith. Right. Secretary----
    Secretary Moniz. --that I----
    Chairman Smith. --Moniz, let me pull you back to the actual 
budget request by the Administration, and almost every year, I 
guess in every year, the amount of money requested by the 
Administration for alternative forms of energy is somewhere 
between three and six times more than for fossil. And to me, 
just looking at that and trying to be factual and objective, 
and I know you have a reputation for that, it sure doesn't seem 
like a balanced all-of-the-above energy policy to me.
    Secretary Moniz. And my second point, after the issue that 
we do have these major other investments that are still in 
process, but I think when we look at EERE, we should really 
recognize that it is two or three really distinct programs.
    Chairman Smith. Okay.
    Secretary Moniz. Our energy efficiency----
    Chairman Smith. You just don't want to look at my budget 
chart here.
    Secretary Moniz. No, no. No, sir.
    Chairman Smith. Oh, okay.
    Secretary Moniz. No, I would love to see it back up 
because----
    Chairman Smith. Okay. Let us put the budget chart back up.
    Secretary Moniz. I prefer looking at the----
    Chairman Smith. Again, the blue is the alternative, the red 
is the fossil.
    Secretary Moniz. Yes. So what I am saying is that blue bar, 
the 2.3 billion on the right----
    Chairman Smith. Right.
    Secretary Moniz. --I think we should relook at it as there 
is a $953 million request for energy efficiency.
    Chairman Smith. Right.
    Secretary Moniz. There is a $579 million request for 
renewable energy, and there is a $780 million request for 
sustainable transportation. And I would argue those are three 
fairly distinct programs which are in fact pretty comparable 
with nuclear and fossil requests.
    Chairman Smith. Right. Well, we left out nuclear which was 
just marginal as you know.
    Secretary Moniz. Nuclear is 863.
    Chairman Smith. Right. Compared to what we spend for 
alternative forms of energy, I think there is just no 
comparison whatever you look at, and that is the disappointment 
and that is why I think that it is not to me, at least, a 
balanced, all-of-the-above energy program by the 
Administration.
    Let me go to my next question real quick and squeeze it in, 
and this is just again, I don't know the answer. I hope you do. 
How much funding remains, because we couldn't tell from your 
website--, how much funding remains for loan guarantees and 
will there be additional loan guarantee this year?
    Secretary Moniz. On the loan guarantee program, first of 
all, it is about $32 billion that has been deployed, and there 
is approximately $24 billion of authority left in the 1703 
program----
    Chairman Smith. Right.
    Secretary Moniz. --and approximately $16 billion of 
authority left in the advanced vehicle technology program.
    Chairman Smith. And do you expect any additional loan 
guarantees to be approved this year?
    Secretary Moniz. Well, approval is a little bit hard 
because there is a very, very long due diligence process. But 
we are actively in process. As you know, we have the fossil one 
out.
    Chairman Smith. Right.
    Secretary Moniz. We plan to issue another call in the 
renewables and efficiency space, potentially nuclear as well, 
and just last week I met with the auto suppliers to point out 
that that program remains open.
    Chairman Smith. Let me go to my last quick question. I hope 
none of those loan guarantees are for offshore wind because on 
the chart that you are going to see here, the cost of offshore 
wind is about 2-1/2 times the cost of on-shore. And not only 
that, offshore wind is by far the most expensive form of 
energy. And it just seems to me that when we are talking about 
limited dollars and we have to set priorities, we wouldn't want 
to spend the taxpayers' dollars on a form of energy, which is 
to say, offshore, not on-shore wind that costs so much compared 
to other forms of energy. Do you want to make a comment about 
that?
    Secretary Moniz. Well, first of all, in the spirit of 
investing in future technologies, our R&D request in renewables 
has a strong offshore focus. So that is the first point. The 
second point is if and when there are loan applications for 
offshore wind, we will go through the extensive due diligence--
--
    Chairman Smith. Right
    Secretary Moniz. --to make sure that there is a very high 
probability----
    Chairman Smith. Why put a single dollar in a form of energy 
that is the most expensive form of energy and they cost 2-1/2 
times as much as on-shore wind? I just don't understand the 
rationale. If you have unlimited funds, maybe you do something. 
But if you don't have unlimited funds, why wouldn't you put the 
money in the most efficient types of energy production?
    Secretary Moniz. Well, again, this is a portfolio of the 
whole, the R&D portfolio, the loan portfolio. It is about 
technologies that are relatively short term, mid-term and long 
term.
    Chairman Smith. Okay.
    Secretary Moniz. Clearly on offshore wind, it is a fact 
that the current price per kilowatt hour----
    Chairman Smith. Right.
    Secretary Moniz. --has got a ways to go to become 
commercially----
    Chairman Smith. Well, I don't see how you ever overcome the 
natural additional costs associated with offshore wind, whether 
it is short, medium or long term. I know you believe in facts. 
I know you believe in data. And I just hope you will spend the 
taxpayers' dollars on where the most efficient means of 
producing energy is, and the least efficient is offshore wind, 
at least according to current data.
    Thank you for responding to my questions, and the 
gentlewoman from Texas is recognized for hers.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman. On 
your chart, there are several categories here listed, research 
in the blue compared to just one category with the fossil. If 
we--we have been served very well by fossil energy, but if we 
don't move from fossil energy to all-of-the-above or other 
alternatives, I want to ask the Secretary, are we running the 
risk of not having enough energy for the people on this planet 
if we just depend on fossil fuels?
    Secretary Moniz. Well, obviously fossil fuels are by 
definition finite. We still have a lot to produce, but I think 
the real issue--in my view, the question is do we have enough 
atmosphere to accommodate using all fossil fuels, for example, 
be it in conventional pollution or carbon dioxide? So clearly 
fuel diversity is very important. That includes bringing 
nuclear, renewables and of course efficiency, along with 
fossil, but our investments are still aimed at fossil for a 
future low-carbon environment.
    Ms. Johnson of Texas. And in looking toward the future it 
would make sense then to put some of the investment in all the 
other research areas other than just fossil?
    Secretary Moniz. Absolutely, very substantially. These will 
play increasingly important roles.
    Ms. Johnson of Texas. Thank you very much. Now, I know that 
in a tough budget environment that you have got to make tough 
decisions. But in the Office of Science, can you provide a 
clearer explanation for the proposed funding level and if there 
is some discretion about which the Office of Science beyond the 
Department's request level can have access to some additional 
resources?
    Secretary Moniz. Well, it is clear that you have already 
given the most important part of the answer which is it is a 
very constrained environment with essentially flat dollars for 
discretionary spending on both sides of the agenda, civilian 
and military, and we faced both of those constraints I might 
say. On the civilian side, we had to make choices. We believe 
the science program at $5.1 billion is very robust. Could we do 
more? We could accelerate for example our development of new 
facilities, but I do note in the budget, for example, our light 
sources, our neutron sources, will be very heavily utilized 
with this budget, and at the same time, moving forward to build 
new capabilities like the Free Electron Laser (FEL) project at 
SLAC, the new accelerator at Michigan State. So I do think we 
will be moving forward.
    We also are recompeting Energy Frontier Research Centers. 
So it will be a strong budget. Clearly, if there were more 
funds, the science enterprise could certainly be even more 
robust.
    Ms. Johnson of Texas. Thank you. Now, there are times when 
I hear a lot about my colleagues talking about picking winners 
and losers and interfering in the free market by crowding out 
private investment. But frankly, I don't understand the 
argument too well. So I am hoping you can help. Should the 
government support all research proposals and areas equally or 
should it prioritize investments based on where we can get the 
most value for our tax dollars? That is question one. And 
number two, has the Department actually picked a lot of 
important winners in the past decades such as breakthrough of 
the hydraulic fracturing technology or is that a bad thing?
    Secretary Moniz. Well, certainly again we believe in a 
broad set of investments, but within that obviously one is 
choosing areas within budget constraints for greater emphasis 
at any given time depending on the opportunities. You have 
mentioned hydraulic fracturing, for example, where the 
Department made the initial investments in the '79-'80 
timeframe, and I might say, that was the seed, but then it was 
picked up by a public-private partnership. In that case it was 
a FERC administered surcharge on interstate gas transmission, 
industry-matching funds and a Congressional tax credit, all of 
which came to facilitate developing the unconventionals.
    In this budget, for example, we don't know. Maybe we will 
have the next unconventional revolution. We have put in for $15 
million to build our methane hydrates program which could be 
the next one in the future.
    Ms. Johnson of Texas. Thank you. My time has expired.
    Chairman Smith. Thank you, Ms. Johnson. The gentleman from 
California, Mr. Rohrabacher, is recognized for his questions.
    Mr. Rohrabacher. Thank you very much. Mr. Secretary, do you 
believe that we will be soon to have at least a prototype of a 
small modular nuclear reactor that is not based on light water, 
the light water reactor concept?
    Secretary Moniz. There--by the way, I might say I am 
certainly very interested in small modular reactors, of both 
light water and non-light water types.
    Mr. Rohrabacher. Light water is the old technology----
    Secretary Moniz. Right.
    Mr. Rohrabacher. --that we've used so far----
    Secretary Moniz. So----
    Mr. Rohrabacher. --so far.
    Secretary Moniz. Right. So----
    Mr. Rohrabacher. Can we get a new type of technology in 
small modular reactors?
    Secretary Moniz. Certainly we can, and I think it is a 
direction we need to move in. But let me explain that certainly 
today, as you know, the one award that is made and the 
tentative award that has been made are both light-water reactor 
types. The issue there is that--this is at least my view in 
supporting that as the first focus area, is that if one looks 
at the retirements of current nuclear reactors, there have been 
a few now. But the major retirement wave, assuming 60-year 
lifetimes, really starts in 2030. In talking to utility 
executives who are interested in nuclear, they say we have got 
to make our kind of capital planning decisions in the 2024, 
2025 timeframe. Even on light water reactors, small modular 
reactors, we don't think we will have the first one out there 
until 2022, 2023.
    Mr. Rohrabacher. I know and----
    Secretary Moniz. So----
    Mr. Rohrabacher. --that is what I would like to suggest 
that is an improper priority. The fact is the light water 
reactors are inherently dangerous. The environmentalists in 
past decades, they were right about that. There are dangerous 
light water reactors. There is no reason for us to be moving 
forward at a slow pace on the development of these small 
modular reactors that are not light water reactors.
    And another area just to call your attention to, the 
success that we have had with stationary, manufactured 
stationary fuel cells in California, that seems to be really 
taking off. It is an enterprise that has a lot of promise, and 
I understand there is something called a turbo fuel cell that 
actually would make--it is a hybrid concept in which we would 
have the cleanest way of utilizing this massive amount of new 
natural gas that we have. Have you looked into that at all, the 
turbo fuel cell?
    Secretary Moniz. In fact, if I--maybe one SMR comment, just 
very briefly----
    Mr. Rohrabacher. Sure.
    Secretary Moniz. --is that I would say that these new 
reactors, they are integral reactors, and I think they have 
some excellent safety features. On the turbo fuel cell, I can't 
say I have looked at that directly, but it sounds like 
something I probably should.
    Mr. Rohrabacher. I would encourage you to do that.
    Secretary Moniz. But I think in general, this issue of 
these hybrid systems are very, very interesting, and this for 
example could be something, if it is moving toward 
commercialization, that could qualify in our fossil loan 
guarantee program because hybrid systems are----
    Mr. Rohrabacher. Right.
    Secretary Moniz. --called out.
    Mr. Rohrabacher. Well, thank you. I would like to draw your 
attention to that. I appreciate that.
    Secretary Moniz. I appreciate that.
    Mr. Rohrabacher. One last area and that is how much of 
today's domestic oil production can be attributed to the 
Alaskan pipeline?
    Secretary Moniz. Well, I don't know in detail, but of 
course we know that production right now in Alaska has been 
going down somewhat after its peak in the '70s.
    Mr. Rohrabacher. Right.
    Secretary Moniz. And right now, the major development, the 
Eagle Ford shale and the Bakken shale----
    Mr. Rohrabacher. Right. Well----
    Secretary Moniz. --have been the main----
    Mr. Rohrabacher. But for the last 25 years, the American 
economy has greatly benefitted, has it not, from the Alaskan 
pipeline? And just to draw your attention again, there was a 
huge fight over the Alaskan pipeline. It almost didn't get 
approved, and I think it was approved by one vote, one vote, 
and the Senate I believe carried that project. Without the 
Alaskan pipeline, our economy would have been severely damaged. 
The well-being of the American people would have been hurt. 
Now, wouldn't we expect that if we don't have the Keystone 
pipeline that the American people will also suffer the 
consequences?
    Secretary Moniz. Well, on the first point, let me just note 
that the Alaskan pipeline had the feature--of course, it was 
very--I believe really very important to the American and of 
course the Alaskan economies. But it had the feature of opening 
up a resource that otherwise had no access to market.
    Mr. Rohrabacher. Well, the environmentalists made all sorts 
of arguments against it at that time. Did any of those 
arguments proven true after the pipeline went into effect and 
has been providing us the oil? Were any of those dire 
predictions come true?
    Secretary Moniz. Well, I am not aware of dire consequences, 
although I must say----
    Mr. Rohrabacher. Well, the----
    Secretary Moniz. --neither am I completely familiar with 
the environmental reference completely.
    Mr. Rohrabacher. Sure, the caribou was going to disappear, 
the tundra was going to melt. We had so many, I mean, Alaska 
was going to be totally changed in its environment. None of 
those dire consequences happened, did they?
    Secretary Moniz. Not to my knowledge, but again, I am 
hardly expert in that----
    Mr. Rohrabacher. So perhaps the Keystone----
    Secretary Moniz. Right
    Mr. Rohrabacher. The complaints on the keystone pipeline 
might be of the same kind of charge. Thank you very much, Mr. 
Chairman.
    Chairman Smith. Thank you, Mr. Rohrabacher. The gentleman 
from Illinois, Mr. Lipinski, is recognized for his questions.
    Mr. Lipinski. Thank you, Mr. Chairman. Secretary Moniz, I 
want to thank you for your leadership at the Department. The 
first thing I wanted to raise with you is the Department's 
management of the Technology Commercialization Fund. My 
understanding is that for two years after it was set-up in the 
Energy Policy Act of 2005, the TCF was used to provide 
technology maturation funds to national labs but has been used 
for other purposes since that time. While I prefer the original 
approach, I think what we need is a forward-looking plan for 
how the TCF is going to be operated that will enhance the 
technology transfer mission at DOE. I think this is something 
that is very important.
    I have worked with the Committee and DOE to put language 
into the Democratic COMPETES Reauthorization Act that would ask 
DOE for recommended policy changes. I understand work is 
currently ongoing to develop a plan. So I want to thank you for 
your work on this so far and ask you is there any update you 
can give us on how the planning process is going or what DOE's 
vision for the TCF will be moving forward.
    Secretary Moniz. Thank you. I think first of all the key 
is, and I will admit to it having been a frustration. The key 
is filling our technology transfer coordinator position with a 
very, very strong and I would say visionary person. We are I 
believe on the verge of finally succeeding in that, and this 
person will play of course a significant role in addressing 
your question directly.
    Secondly, we have raised this very directly with our 
Laboratory Policy Council. So with the lab directors and our 
senior leadership in DOE we are specifically developing a plan 
around technology transfer. Again, it has been somewhat impeded 
by our unfilled position, but that will be corrected I believe 
within weeks. I feel confident this time that we will get past 
the finish line.
    And finally, our Secretary of Energy Advisory Board, SEAB, 
is just forming a task force around a variety of laboratory 
governance issues, and technology transfer is one of those. So 
I think finally we are marshalling the resources we need. To be 
able to answer your question, I ask for a little more patience, 
and we will stay in touch.
    Mr. Lipinski. Okay. Well, I just want to emphasize the 
importance of that is--I have before, and thank you for that. 
And anything that we can do up here certainly to help move that 
forward, you know, we will be happy to do that.
    Next question, as you know, several of our national labs, 
including Argonne, which is in my district, have legacy nuclear 
waste on site. Currently labs are using overhead dollars to 
manage the waste on site, but given that we may not see large 
budget increases in the future, these overhead dollars are 
precious for the labs. Does the Department have any plans to 
characterize and package the waste so that overhead funds could 
once again go towards furthering the scientific mission of the 
labs which, as I said, with the tight dollars we have right 
now, this would become increasingly a major issue for many labs 
including Argonne?
    Secretary Moniz. This remains a challenge, and the entire 
environmental management issue across the Department is also 
like other things up against these tight budget caps, in this 
case in particular in the so-called 050 account. Now, for 
perspective, I believe EM has closed out close to 90 percent of 
the requirements on managing legacy waste, but of course, there 
is still a lot to do in this business, including many of the 
hardest projects.
    With regard to the labs, all I can say is we are trying to 
move on that. I have to admit, I don't know the Argonne 
situation as well as some others that are somewhat larger in 
scale. For example, in Los Alamos right now, we have had to 
move some transuranic waste urgently because we are concerned 
about the next fire, wildfire season coming up, and we are 
trying to get everything out there.
    So we are trying to prioritize and move, and I understand 
the frustration and the challenge on the lab budgets. I might 
also just add, I think with Argonne, as you know, we have just 
announced a new director, and I think it is an outstanding 
choice.
    Mr. Lipinski. Thank you. And again, I want to thank you for 
your work, and continued work on these particular issues. With 
that, I will yield back.
    Chairman Smith. Okay. Thank you, Mr. Lipinski. Before I 
recognize the Chairman Emeritus, Mr. Hall of Texas, I just want 
to say to Members, we are expecting one vote to come up 
momentarily, and if a couple of Members on either side want to 
go vote right now, we are going to continue the hearing during 
votes, and a Member is on the Floor now who will come back and 
relieve me. So that way we will be able to squeeze in perhaps 
three or four Members and their questions. I don't want 
everybody to get up and leave because we need people to ask 
questions for the next few minutes. But if someone wants to go, 
then they will be in line immediately after the vote.
    The gentleman from Texas, Mr. Hall, is recognized for his 
questions.
    Mr. Hall. I still have my full time, right?
    Chairman Smith. Yes, you do.
    Mr. Hall. Thank you, Mr. Chairman, and I want to thank you, 
I really do want to thank you for holding this hearing on what 
is probably one of the most important words in the dictionary, 
especially to youngsters 18 years old, high school, college 
graduates, and that word is energy. Other than prayer or grace, 
it is probably the most important word in the dictionary.
    Mr. Secretary, this is the second opportunity I have had to 
hear from you. Last week you appeared before Energy and 
Commerce, and we are pleased to have you here today to report 
on science and technology priorities at the Department of 
Energy.
    Mr. Secretary, you are one of the few, maybe I am not 
putting that correct, but you are one who knows something about 
Section 999 of the Energy Policy Act of 2005, right?
    Secretary Moniz. I do, indeed.
    Mr. Hall. It established an unconventional oil and gas 
research program. Actually, to put it plain, we had energy at 
the bottom of the ocean ultra-deep that we couldn't get up, and 
we traded for technology to get it up and paid for it with the 
energy that we got up, not at the taxpayers' expense. And that 
is what sold it and that is what makes it good still today. And 
it has been battered around, hammered, but it is still alive. 
So I want to ask you some questions about it.
    As you know, this program has funded a wide range of very 
successful projects that have developed new technologies and 
processes to mitigate potential environmental impacts and 
improve energy production efficiency. First, A, let me ask you, 
what are your thoughts on Section 999 program?
    Secretary Moniz. Well, I believe the program, as you said, 
has done a very, very good job in terms of its R&D support, 
very, very strong university participation, very strong 
industry matching funds in ultra-deep water, unconventional gas 
and small producer problems.
    Mr. Hall. And how did the program fit in with an ``all-of-
the-above'' strategy that our country needs and this 
Administration claims to support?
    Secretary Moniz. Well, many of the programs supported and 
those also that we proposed in our natural gas technology 
section are addressing the environmental challenges----
    Mr. Hall. And I am pleased it stays supported.
    Secretary Moniz. --of producing--yes.
    Mr. Hall. Can you tell us why the public-private 
partnership approach worked so well for this program?
    Secretary Moniz. Well, I am a big fan of public-private 
partnerships in general. This program, again, it worked well. I 
think it provided stability because of the revenue stream for 
the industry to feel confident in investing in matching funds 
for longer term projects.
    Mr. Hall. And the real-world research accomplishments of 
the program?
    Secretary Moniz. I think it was, again, a very, very good 
program, many very positive things.
    Mr. Hall. Mr. Secretary, the fairly recent and dramatic 
increase in natural gas and oil production that has resulted 
from hydraulic fracturing and horizontal drilling have been 
great for the country from an energy supply and employment 
perspective. These new technological and energy advancements 
bring with them new challenges such as water, and other 
resources, management, well production, efficiency improvement, 
minimization of methane emissions and understanding and 
protecting against other activities. What do you think is the 
best way to understand and manage these challenges? And it has 
been challenged ever since it passed, even by governors that 
signed it.
    Secretary Moniz. Well, again, in general, I think the 
programs including public support and public-private 
partnership, especially for looking at the environmental 
impacts of frontier hydrocarbon production are critical, and I 
think there are many mechanisms for doing that.
    Mr. Hall. And I will ask you a real quick question. I think 
I know what your answer is. Would it better to have a purely 
government program or an R&D program that combines public and 
private experience, knowledge and funding?
    Secretary Moniz. Well, I think, again, in this area in 
particular, I think public-private partnership is the way to 
go, and that can be--our own programs require, for example, 
matching funds.
    Mr. Hall. Tell us why the public-private partnership 
approach works so well for this program.
    Secretary Moniz. Well, again, I think it is more general. I 
think the way these work is industry has a major role in 
defining the research agenda, but then many other players, 
including universities and our national laboratories, are the 
performers of the research.
    Mr. Hall. I will have other questions that I will send to 
you, but I thank you for it. Would you like to do more cross-
cutting programs like this program?
    Secretary Moniz. Absolutely. I think cross-cutting programs 
and public-private partnership is a key to some significant 
progress.
    Mr. Hall. I have 1 second to yield back. Thank you.
    Chairman Smith. Thank you, Mr. Hall. The gentlewoman from 
Oregon, Ms. Bonamici, is recognized.
    Ms. Bonamici. Thank you, Mr. Chairman. Secretary Moniz, 
welcome back, and thank you for your expertise, your hard work 
at the Department of Energy and the wealth of knowledge you 
bring to these hearings.
    I wanted to mention, you said something about a new 
framework for the Hanford clean-up, and as someone who 
represents the State on the other side of the Columbia River, 
thank you. We look forward to getting updates on how that is 
going.
    Before I move onto my questions, I want to simply go on 
record as stressing the importance of continued robust funding 
for the Office of Science. On this Committee as well as on the 
Education Committee, one of the challenges we frequently 
discuss is how to make sure that young people are interested in 
going into the STEM fields. I just had a student in my office 
who is engaged in post-graduate work on high energy physics, 
and he was first inspired to go into the field when he learned 
about the LHC and the search for the Higgs-Boson particle. That 
project enjoys contributions from a host of partners, including 
the Department of Energy, and these investments are important 
to advance science but also to inspire young people to go into 
science. So that is a continued investment that is important.
    On that note, another important investment is in the STEM 
workforce. It is developing educators who can inspire our youth 
to pursue a career in the STEM fields. So I was a bit concerned 
that the budget for Workforce Development for Teachers and 
Scientists within the Department of Energy is facing a 
decrease, and can you briefly comment on what the Department is 
doing to promote STEM learning through other initiatives with 
that cut?
    Secretary Moniz. Well, thank you. A couple of comments, and 
I will look more carefully at those issues in terms of our 
distributed programs for dealing with teachers, et cetera, 
because a lot of it does happen without explicit budget 
recognition, for example, through our laboratories. But a 
couple of points: One is I think as you know, the 
Administration is continuing a process of trying to consolidate 
a number of these programs, and so we will be working with the 
new NSF director, for example, trying to make sure that the DOE 
needs are in fact reflected fully. A second point I will just 
make. It is not quite on this, but it is related, is that in 
this budget, it is not a huge amount of funding, but we want to 
move forward with the Office of Science as the guiding light to 
institute perhaps you might call experiment, with some NIH-like 
traineeships. So distinct from fellowships or research 
assistantships, traineeships focused on specific areas of 
national need for human resources relevant to energy.
    Ms. Bonamici. Terrific. Thank you. And I want to move on 
because I have a couple more questions. I wanted to ask about 
another budget decrease that is proposed, and that is a 25 
percent cut for marine and hydrokinetic renewable energy 
research and development. We have a lot of potential on the 
coast. There is the Northwest National Marine Renewable Energy 
Center that has benefitted from the DOE's water power program. 
There is some nascent technology that holds great economic 
promise, of course, with the exploration of wave energy and the 
development of wave energy devices.
    So I am a little concerned about that cut, but I saw that 
the Energy Efficiency and Renewable Energy budget was 
increased. So without strong Department of Energy involvement, 
I am concerned that the water power industry won't progress at 
the pace they need to. So can you please comment on that? And I 
want a little time for one more quick question.
    Secretary Moniz. Quickly, first of all, the water power 
office budget was put in for an increase, but what happened was 
there was a rebalancing toward things like microhydro and a new 
stream reach, et cetera, with the idea that that may have 
shorter term commercialization. However, let me be completely 
straightforward. In a number of hearings, I have heard this 
concern over the marine kinetic program, and we will be happy 
to engage that discussion and look at----
    Ms. Bonamici. Terrific.
    Secretary Moniz. --a possible rebalancing.
    Ms. Bonamici. Great. We would prefer that our businesses 
don't have to go to Scotland to test their technology. And 
speaking of foreign competition, I have in my district the U.S. 
headquarters of Solar World, and they have had ongoing concerns 
about China flooding the market with panels. There is a serious 
concern about how that creates a playing field that is not 
level. So as we continue to look at ways to promote the 
implementation of clean energy technology at a price that is 
cost competitive with traditional fossil energy, can you 
discuss the trade-off between cheaper solar power today and the 
cost of potential dependency on Chinese manufacturers in the 
future?
    Secretary Moniz. Well, there is some trade-off there, but 
of course, we would like both. As you know, there are trade 
cases that we have brought in the WTO framework, and I believe 
that we are still very, very strong in our supply chain, 
polysilicon, for example. And of course, as we know more 
generally, manufacturing is coming back to the United States. 
So we want to help make sure we are competitive in multiple 
dimensions, including I might add, the manufacturing 
initiatives that have broad application. For example, the very 
first manufacturing hub, we put in funding with the Department 
of Defense to advance 3-D printing. That may have implications 
for solar and other industries down the road. Oh, and also, our 
second one, I am sorry if I may add--then our second one that 
we funded entirely is on power electronics which of course is 
very important for the balance of systems in a solar panel.
    Ms. Bonamici. Right, and my time is expired. Thank you very 
much, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Ms. Bonamici. The gentleman from 
Texas, Mr. Naugebauer, is recognized.
    Mr. Naugebauer. Thank you, Mr. Chairman, and thank you for 
holding this very important hearing. Secretary Moniz, obviously 
you have been in a number of budget hearings the last few 
months, and you continue to reiterate the importance of an all-
of-the-above energy program. But I would kind of associate 
myself with the remarks of the Chairman. You know, an all-of-
the-above means, you know, an all-of-the-above. And I think 
that the distribution that the Administration is making on 
research for all-of-the-above is a little bit convoluted when 
you think about the fact that 80 percent of the world's energy 
will come from fossil fuels, at least through 2040, according 
to a recent EIA report. And I would refer back to the 
Chairman's chart there, it would look like to me if that is the 
future there, that the chart should be changed around where a 
majority of the money is going to for fossil fuel development 
because that is where the majority of the energy is going to 
come from.
    With that being said, earlier this year I think the 
Administration announced it was going to conduct a quadrennial 
energy review to examine U.S. energy policy and make 
recommendations for the future with all of the other energy 
sources, all-of-the-above energy sources on the table. I think 
this is a good idea. In Texas we already understand the 
importance of all-of-the-above. As you know, Texas leads the 
Nation in oil and gas and wind energy production. What are your 
expectations for the QER and what do you expect to come out of 
that?
    Secretary Moniz. Thank you. The QER, the Q is of course 
quadrennial, but we are taking quadrennial kind of one year at 
a time. So this year the focus is specifically on energy 
infrastructure, the transmission, storage and distribution of 
energy. That is electricity. It is also fuels. So there is 
going to be two major focus areas. It will be around 
modernization of the grid taking into account all the threats 
that we see, extreme weather, cyber, physical threats, 
geomagnetic, infrastructure interdependencies. It will also 
look at fuels, infrastructure resilience with particularly 
focused on different regions because the regional challenges, 
the bottlenecks there are quite different. For example, we have 
seen in New England this winter the natural gas issues. We have 
seen in Upper Midwest and actually elsewhere as well, including 
going much further south, things like the propane issues which 
were big infrastructure issues. We have the oil by train 
issues. So this will be the focus this year. At the end of the 
year we intend to have this first chunk done that will then 
recommend whatever policy steps that we believe should be 
taken. And that will be--it is a public discussion, I should 
say, that is--tomorrow the first public meeting on the QER will 
be held here at the Capitol, in fact, and then we will be going 
out around the country.
    Mr. Naugebauer. Do you have an outline of the full scope of 
it? And obviously you were talking about specific areas here. 
And what I heard you saying is this is the first step. So is 
there----
    Secretary Moniz. Right.
    Mr. Naugebauer. --an overall model or outline of what you 
intend to review through this process?
    Secretary Moniz. So tomorrow there will be discussion about 
where we are going with this and the kinds of information we 
are bringing together. I might say that we have consolidated a 
number of policy activities in the Department, supportive of 
this QER, and built up analytical capacity because a lot of 
this is going to require some serious analysis. So we will 
discuss that, and this year's agenda is what I said. For the 
following years, we have ideas but to be perfectly honest, we 
are looking here at a long-range plan as a series of short-
range plans. We are heavily focused on this infrastructure 
issue.
    Mr. Naugebauer. So obviously infrastructure is important, 
but what assurances can you give me that during this review 
that it will be an all-of-the-above approach?
    Secretary Moniz. Well, as I have said, the two major focal 
areas will be electricity with all forms of supply which the 
grid must deal with including, I could say in Texas, you know, 
long-range renewables with base-load plants. But like I said, 
the other major focus is going to be on the liquid fuels 
infrastructure with a regional focus.
    Mr. Naugebauer. I look forward to, you know, you giving us 
an update on the----
    Secretary Moniz. We would be happy to. Also, tomorrow there 
will be the public meeting, but we could provide, you know, 
some briefings if that is helpful.
    Mr. Rohrabacher. [Presiding] Thank you very much. And now 
Dr. Bera from California.
    Mr. Bera. Great. Thank you, Mr. Chairman. And thank you for 
coming back to the Committee, Mr. Secretary. If I recall when 
you were last here, we talked a little bit about atmospheric 
carbon and the amount of time it takes to degrade atmospheric 
carbon. I am trying to search my memory. Did you say 4,000 
years roughly?
    Secretary Moniz. No, but I said centuries.
    Mr. Bera. Centuries.
    Secretary Moniz. Yeah.
    Mr. Bera. Okay, but still a significant amount of time. 
Once the----
    Secretary Moniz. A long time.
    Mr. Bera. --carbon is captured in the atmosphere, it 
certainly takes a long time to degrade it. We have also, you 
know, in much of the debate within this body as well as we talk 
about climate change, much of what we discuss is how to 
mitigate adding additional carbon to the atmosphere, and I 
think that is where some of the discussion has gone. In 
addition, when we talk about sequestration, much of what we are 
talking about is how we capture and do soil-based 
sequestration. That is accurate I believe as well.
    Secretary Moniz. Um-hum.
    Mr. Bera. Within the DOE budget, though, are we also 
researching potential opportunities to do atmospheric 
degradation in terms of research and so forth? I would be 
curious about that.
    Secretary Moniz. Well, there are activities going on like 
beneficial use of CO<INF>2</INF>. There are not that many 
opportunities at the scale that one needs. One example would be 
our sunlight-to-fuels hub which is an issue of using light, 
CO<INF>2</INF> and water to produce hydrocarbon fuels for use. 
That is one example. But I can't say that that is going to be 
commercial next year.
    Mr. Bera. But some of the challenges that we potentially 
face is at some juncture atmosphere carbon that is already 
captured there is not going to degrade for centuries. We will 
have a challenge, and there probably is some irreversible point 
where----
    Secretary Moniz. Right, and in general--again, these are 
major scientific challenges, not easy, but a very important 
part of the portfolio because certainly if you compare that 
with some of the ideas about what is called often 
geoengineering, like putting sulfates into the atmosphere, 
those have consequences that I don't think we understand.
    Mr. Bera. Absolutely. Switching over to kind of the 
scientific computing side and so forth, you know, Intel is a 
major presence in my district and has been obviously very 
involved in supercomputing. We have, within this body, talked 
about if some of the advanced scientific computing and 
challenges of managing big data as we accumulate more data, how 
we sort through that data, how we use it. You know, I am a 
physician by training. Certainly there are ways for us to use 
it to better manage patients and disease. I would like to have 
you comment on the DOE's, you know, supercomputing priorities 
here. You touched on the exascale program and so forth. I would 
love to hear your comments.
    Secretary Moniz. Thank you. Again, we consider this to be a 
very high priority and very much in line with the historic 
contributions that DOE has made in leading high-performance 
computing. So our plan would be to achieve exascale early, very 
early in the next decade. I want to make clear that we don't 
view this as a race to how many flops as opposed to generating 
the technologies. For example, energy management is a critical 
one if we are going to make the next stage. But resilience of 
computers, how do you do the algorithmic architectures, a whole 
set of questions that are very fundamental as we go to this 
next scale.
    So we are going to push that and drive it through an 
application vision to science issues, to energy issues and of 
course, to national security issues. Our nuclear weapons 
program has always relied upon this very heavily.
    Mr. Bera. Great. You also touched on the importance of the 
public-private partnership and your emphasis there and the 
Office of Technology Transfer. Just given your academic 
background, what are some things that we could do within this 
body to help facilitate that greater partnership between the 
private sector and academia, particularly our public 
universities?
    Secretary Moniz. With regard to the computing specifically?
    Mr. Bera. Well, computing but also the whole area of 
technology transfer.
    Secretary Moniz. Okay. Well, I think the Committee could 
certainly advance these kinds of programs that are viewed in 
particular with having some degree of stability over time. That 
is very important I think for industry-making commitments, 
okay? Secondly, I think reinforcing, within balance, some of 
these group projects. Like in the Office of Science, I will 
mention the Energy Frontier Research Centers. I think this has 
been a terrific program. It is construct, is engaging the 
science community, getting 10, 12 people together on an 
important project over five years, and those, I know from my 
own experience, where MIT had, in my previous life, I want to 
make it clear, had two of those. They really attracted 
industrial partners in there.
    So those are the kinds of things that I think, in terms of 
how it is structured, would be very helpful.
    Mr. Bera. Great. Thank you. I will yield.
    Mr. Naugebauer. Thank you very much, Doctor, and just for 
the record, when I was asking my questions I mentioned that 
nuclear energy is inherently more dangerous. I meant of course 
light water reactors are inherently more dangerous than the 
alternatives that we are now looking at.
    Secretary Moniz. That is how I interpreted it.
    Mr. Naugebauer. Good. Thank you very much. And now, Dr. 
Buschon?
    Mr. Buschon. Thank you, and thank you, Mr. Secretary, for 
being here. In the wake of the EPA's new power plant emission 
proposals, there has been a lot of talk about CCS, but there 
are other clean-coal technologies that will be vital to our 
Nation's energy future. It seems like in our rush to CCS, it 
looks like we skipped over or ignored other potential 
technological breakthroughs. For example, one of the most 
interesting is the idea of supercritical CO<INF>2</INF> 
technologies where carbon dioxide is used as a working fuel to 
promote high thermal efficiencies. DOD is currently investing 
in these technologies for the use in both nuclear and renewable 
power applications. However, DOE is not exploring the use of 
the technology for coal applications. Can you discuss the 
application of supercritical technologies to increase 
efficiency and reduce emissions?
    Secretary Moniz. Actually, I really appreciate your raising 
that because that is another one of these cross-cutting 
examples that I mentioned earlier. We see this very much as 
applicable to coal as well. I know the specific coal budget 
request is small, but that is because we have--for various 
reasons, including recent history, nuclear energy is playing 
the lead role in that as we move to a demo. But we have a group 
which includes fossil and nuclear and renewables, especially 
because of the geothermal applications, and the demonstration 
project being done will be equally applicable to coal and to 
nuclear.
    Mr. Buschon. Okay. That is good to know. And looking beyond 
power generation applications, are there other opportunities 
for coal-to-liquids R&D? What is the status of those type 
projects, trying to find alternative ways to use coal?
    Secretary Moniz. So we are evaluating--without saying too 
much, we are in due diligence right now in terms of a 
potentially large project involving coal-to-liquids and 
renewables. I can't guarantee that is going to come out the 
other end, but there is a due diligence going on right now on 
that.
    Mr. Buschon. Okay. Thank you. I yield back, Mr. Chairman.
    Mr. Rohrabacher [Presiding]. Thank you very much. And I 
think we have now Ms. Edwards from Maryland.
    Ms. Edwards. Thank you very much, and thank you, Mr. 
Secretary, for being here. I have a question actually about the 
authorization that is coming up for the Office of Science. We 
probably should be doing that in the next few months, and I 
think it presents quite an opportunity for us because there is 
a lot of support across the aisle for the activities that are 
carried out by the Office. But I do think that for some of my 
colleagues, one of the challenges is around the environmental 
research portfolio. So I wonder if you could describe in more 
detail how the Office of Science Environmental Research 
programs help to meet the missions of the Department of Energy, 
including the clean-up of legacy waste sites and provide a 
unique opportunity or contribution to the portfolio of 
environmental research carried out by other agencies and what 
those relationships with the other agencies are and how they 
are coordinated with other relevant agencies and programs.
    Secretary Moniz. I will certainly respond to that, but 
maybe we can provide you as well a fuller response. That is a 
very expansive----
    Ms. Edwards. Sure.
    Secretary Moniz. --question. So you are referring I think 
to the BER program specifically?
    Ms. Edwards. Right.
    Secretary Moniz. And of course, we have a very, very strong 
biology-related program there as you know with a strong history 
for example in the human genome project in fact in getting that 
kicked off. So today we are not--first, let me make it very 
clear. We are not involved in the the human health questions 
directly as opposed to using advanced genomics and proteomics, 
et cetera, to address a set of energy-related and 
environmental-related clean-up questions.
    I might add that there are some other discussions that have 
been initiated with us with NIH asking us about capabilities in 
our laboratories that might be useful for the brain initiative. 
So that is in the very early stages but could be something 
interesting. That is based mainly on our computational and 
sensor capacities.
    Finally, of course, that program is the center for what is 
a major part of the climate change modeling program, a major 
engine for doing that and combining it with our large-scale 
computational capabilities, getting to finer and finer spatial 
resolution.
    Ms. Edwards. What are the other agencies with which you 
work in the area of climate research?
    Secretary Moniz. There is a broad set of agencies. I 
probably can't name them all, but NOAA for example would be a 
very important one, National Science Foundation another one, I 
am guessing----
    Ms. Edwards. What about NASA?
    Secretary Moniz. --the Interior.
    Ms. Edwards. What about NASA?
    Secretary Moniz. NASA? Yes, absolutely. Thank you. Very 
important, NASA.
    Ms. Edwards. Can you tell me more specifically about the 
work that you are doing around climate that relates to NASA and 
the importance of the connection between the two agencies?
    Secretary Moniz. Well, I think it is very complementary. I 
mean, NASA of course has the very strong observational 
capabilities, providing data, et cetera, and the Department of 
Energy I would say--you know, in the end our very major 
capacity is around high-performance computing and developing 
let us call it the software structures that one needs to 
analyze.
    Ms. Edwards. Would you be comfortable with losing the 
responsibility for at least the climate part of the research 
portfolio because other agencies do similar things? Would it be 
okay to just deep-six the energy portfolio?
    Secretary Moniz. No. First of all, I think the Department 
of Energy has the greatest capacity in this area. It would be 
very hard to replace given again our high-performance computing 
capabilities. And secondly, it is so directly connected to the 
energy system. So I think the Department remains the place 
where that can be most effectively carried out.
    Ms. Edwards. Do you think--is there work that you are doing 
that you believe might be duplicative in other agencies? Have 
you found that in the relationship that you have, say, with 
NOAA, NASA, NSF?
    Secretary Moniz. So I think there has been now functioning 
for quite a long time the Interagency Climate Change Group that 
is specifically dedicated to having complementary programs 
executed but come together into a hole without gaps.
    Ms. Edwards. So you don't think there is any duplication of 
effort in that area?
    Secretary Moniz. I would say nothing material.
    Ms. Edwards. Okay. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Rohrabacher [Presiding]. Thank you. Mr. Posey?
    Mr. Posey. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for your attendance today and more particularly for 
directly answering every question that was sent your way. We 
really appreciate that one. Can you give us a current status on 
the supply inventory and availability of plutonium 238 and any 
other nuclear fuel that may be needed for spaceflight?
    Secretary Moniz. Actually this is one where I am going to 
have to I think respond for the record, to be honest, I am not 
up to date on the plutonium 238 situation. I have to be honest 
about that.
    Mr. Posey. Okay.
    Secretary Moniz. But we will respond for the record----
    Mr. Posey. Within the next 10 days?
    Secretary Moniz. I am sorry. We will respond to you 
quickly. I am sorry.
    Mr. Posey. Okay.
    Secretary Moniz. Will to you directly, yes, sir.
    Mr. Posey. Well, the follow-up, you know, how much time 
does it take to produce the PU-238 and the costs associated 
with it?
    Secretary Moniz. Okay. We will respond on that as well. 
Obviously there have been issues historically of Russia being a 
principal supplier.
    Mr. Posey. You know, is a thorium reactor currently being 
employed or being considered as an alternative means to produce 
PU-238 from uranium 233?
    Secretary Moniz. No, sir. We certainly are not engaged in 
that, and we have no thorium program that I know of at least 
today.
    Mr. Posey. Okay. Thank you.
    Secretary Moniz. Yeah.
    Mr. Posey. Do you know of any other feasible, timely or 
cost-efficient alternative means of producing PU-238?
    Secretary Moniz. Again, I think we are going to have to 
give you a comprehensive response to all of these plutonium 238 
questions, and we will do that promptly.
    Mr. Posey. Okay. Are you aware of any stockpile of U-233 in 
our national inventory that could be used to do PU-238 which is 
currently being considered for destruction?
    Secretary Moniz. Yes, well, we certainly have U-233 
particularly at Oak Ridge. It is not in a form right now that I 
think is usable, and in fact we are moving towards the disposal 
of a number of capsules that contain U-233.
    Mr. Posey. Could you expand upon that a little bit? Why we 
are disposing of it?
    Secretary Moniz. Well, it has been declared as a waste 
form. It has now been transferred to our environmental 
management program for disposal. We have not seen a use for it 
or projected use for it, particularly given the difficulties 
that would be entailed in terms of purifying it.
    Mr. Posey. Yeah, and of course, that was one of my previous 
questions. Processing 233 and the 238 and--I mean, I am kind of 
alarmed. I was hoping you were going to say no, there are none 
being considered. What we have, you know, we are guarding with 
our lives because it is so hard to produce, it is so hard to 
get and of course, it is hard to bring it to the next level as 
well. But I think this is real key to human or any space 
exploration and I would like to know as much about that as soon 
as possible----
    Secretary Moniz. Okay.
    Mr. Posey. --as you know about it or can find out about 
that.
    Secretary Moniz. Okay. No, I will get people on it today.
    Mr. Posey. Thank you very much.
    Secretary Moniz. Thank you.
    Mr. Posey. Mr. Chairman, I yield back.
    Mr. Rohrabacher [Presiding]. Mr. Peters?
    Mr. Peters. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being with us today. I had a question about 
algae. I understand that the Department of Energy, Office of 
Science has supported fundamental science research on biomass 
including $600 million since 2007 for the three Bioenergy 
research centers which, according to the website, provide the 
fundamental science to underpin a cost-effective, advanced, 
cellulosic biofuels industry. We certainly support the work 
that is being done in that area and agree that that is 
important.
    I would just encourage you to expand the Office's portfolio 
to include research on algae. I am sure that there are many 
Members of Congress, including of course other Members of the 
bipartisan Congressional Algae Caucus which I co-chair who 
would appreciate your support for algae research in the DOE's 
Office of Science, and I wondered if you had any thoughts on 
that.
    Secretary Moniz. Well, I will certainly get together with 
Pat Dehmer here and see what we are doing and what more might 
be done. I will note that there are other programs engaged 
here. For example, our work with DOD and USDA in our tri-
agreement, I believe two of the four projects certainly involve 
oils in algae.
    Mr. Peters. Right, but I----
    Secretary Moniz. But I will check that.
    Mr. Peters. We certainly appreciate your participation in 
that and support that effort and the funding for it. And I also 
wanted to applaud the Department's attention to carbon capture 
utilization and storage research and wondered if you had any 
thoughts on what kind of technologies would be looked at for 
CO<INF>2</INF> utilization.
    Secretary Moniz. Well, today the principal utilization 
approach is enhanced oil recovery. In fact, we are producing 
about 300,000 barrels a day today from CO<INF>2</INF>-enhanced 
oil recovery where that CO<INF>2</INF> is mostly natural. So as 
that ramps up, there is a potential for about 600 megatons of 
CO<INF>2</INF> per year for enhanced oil recovery if the rather 
loose projections hold out, which can only come from carbon 
capture.
    Mr. Peters. Right.
    Secretary Moniz. So that is the principal one right now, 
just known----
    Mr. Peters. Just again, how much did you say?
    Secretary Moniz. The potential is for 600 megatons of 
CO<INF>2</INF> per year which would produce about 3 million 
barrels a day, and roughly speaking it is a half-a-ton of 
CO<INF>2</INF> per barrel of oil produced. So that could be 
substantial utilization. Then there are the others which are 
still in much earlier stages. I mentioned one earlier, 
sunlight-to-fuels, you know, sunlight plus CO<INF>2</INF> plus 
water going to fuels. That is an example of but much more 
research is obviously required.
    Mr. Peters. Right. Great. I appreciate that, and that is 
also very important. Finally, on advanced nuclear reactors, in 
Fiscal Year 2014, Congress gave the Department $12 million for 
advanced reactor concepts for an industry-only competition, 
four times the amount you had in the previous year. And I hope 
that means that you could make some grants as high as $4 or $5 
million that would attract competitors. Maybe the Department is 
looking into develop the whole reactor as opposed to individual 
technologies. Do you anticipate that the Department would be 
able to communicate with American companies along those lines?
    Secretary Moniz. I believe there is communication along 
those lines, but I will get back and talk with Mr. Lyons and 
see if we can't sharpen it up.
    Mr. Peters. Okay. Super. And again, Mr. Secretary, thank 
you very much----
    Secretary Moniz. Okay.
    Mr. Peters. --for your fine work and for being here today.
    Secretary Moniz. Thank you.
    Mr. Rohrabacher [Presiding]. Mr. Hultgren?
    Mr. Hultgren. Thank you, Chairman. Thank you, Secretary 
Moniz. I appreciate your very important work. I appreciate you 
being here as well. As all of us, I understand the tough 
constraints you are dealing with with the budget, so it is more 
important than ever that we understand the priorities the 
President is putting forward.
    As you know, I have been fully supportive of basic 
scientific research and recognize that the Federal Government 
must do this. I also recognize our lab systems put us in a 
position to that while also making our user facilities 
available to other agencies, universities and even business. 
Many of these facilities run 24 hours a day and have to turn 
away researchers. This also ensures that we keep the brain 
power in America to make our next game-changing discovery right 
here and as soon as possible.
    Would you say that the President prioritizes applied 
research, demonstration and deployment over basic research?
    Secretary Moniz. Yeah, well, I believe it is a very 
balanced view, and the President has stated many times that we 
understand that, yeah, our basic research enterprise ultimately 
is what underpins all that we do. Then of course one has to 
make the difficult budget balancing.
    Mr. Hultgren. Yeah, it does come back to where priorities 
are. When I see a budget that has a less than one percent 
increase in the Office of Science, I can understand that 
certainly is a product of our budgetary constraints. But when 
you look throughout the rest of the DOE budget, it is easy to 
see that it is not the case. This is misplaced priorities 
according to my reading. Many programs for favored industries 
are getting a large budgetary increase. EERE received a 22 
percent increase which includes funding for offshore wind 
demonstration, as the Chairman talked about.
    When I think of technological development, I see basic 
scientific research as the horse that is pulling the cart. 
Whenever we have a budget that is putting strains on our 
ability to do this work while paying to rush out technologies 
which may or may not yet be viable on the open market, I am 
worried that we are putting the cart before the horse, and to 
make matters worse, we are starving the horse while we are at 
it. This will have long-term impacts on our ability to innovate 
and be a competitive Nation, I fear.
    To better understand what the President is looking for so 
we can do this kind of work, can you broadly explain to us what 
you will need to see from the particle physics project 
prioritization panel, or P-5, report? I know we are still 
awaiting the report next month. So I am not asking you about 
any specific projects you might endorse. This is just so we 
have a better understanding of how the Administration goes 
about its prioritization process.
    Secretary Moniz. Yes. Thank you. I am looking forward very 
much to the P-5 report at the end of May and how HEPAP deals 
with it, High Energy Physics Advisory Panel. What I have said 
to the group last year and to Nigel, the director at Fermilab.
    Mr. Hultgren. Yes, doing a great job.
    Secretary Moniz. Terrific guy. To be honest--well, first of 
all, let me say the discovery science, particle physics, and 
others of the basic sciences, are very, very strongly committed 
to. The high-energy physics community, I have made no secret of 
it and they agree that for quite some time it has been very 
difficult to get a coherent kind of buy-in of the community, as 
least to some of the major commitments. I am very much hoping 
that that is what we will see in May, and with that, I think we 
can all do some work.
    Mr. Hultgren. I hope to, too. And I am optimistic from 
that. The P-5 report is vital for our direction in physics, and 
looked at it as similar to the decadal survey for NASA which 
our Committee has had hearings on.
    What worries me about this budget is the mixed signals we 
are sending to the scientific community which is becoming 
increasingly international. This is just one example that is 
emblematic of the budget as a whole. The community understands 
their budgetary constraints, and they are trying to do this in 
a responsible fashion. But in the lowest budgetary scenario, 
they were told to expect flat line funding for three years as 
the President has used basic research as I see it as a piggy 
bank for other priorities. The HEP line was cut. While we 
continue to cite the need for community to rally behind a plan, 
how does the Administration justify the moves that are 
disincentivizing the community to do so? The international 
community continuously says they just need to see some 
semblance of long-term stability. What are they supposed to 
think when the report comes out but we couldn't give the people 
crafting the report an honest budget scenario to work with? 
When we have projects engineering and design funding for 
project cuts, aren't we sending the wrong message? We have even 
cut accelerator R&D funding, even though it was vital for the 
LCLS upgrades DOE is citing as a major accomplishment. I just 
want to see a cohesive message that our science community can 
work with, that can have that confidence, that their work is 
important that we recognize and it is a priority. Again, I 
appreciate your work. I appreciate your openness, certainly to 
be here and to meet with me, to meet with others. I know these 
are challenging times, but I just want to express my concern 
and I think the concern that others around the world are 
feeling with the uncertainty there and specifically to our 
scientific community.
    My time is expired. I yield back, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Hultgren. Before I recognize 
the gentleman from California, Mr. Swalwell, I would like to 
recognize the Ranking Member, Ms. Johnson, for some comments.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman. I 
just wanted to announce the arrival of the new Member which we 
acknowledged earlier, Ms. Katherine Clark, from Massachusetts. 
Welcome
    Ms. Clark. Thank you.
    Chairman Smith. We do welcome the new Member. Thank you. 
Representative Clark, both the Ranking Member and I took your 
name in vain while you were at the earlier meeting, but we do 
look forward to your membership in this Committee and your 
participation and the interest and expertise you bring as well. 
Thank you.
    The gentleman from California, Mr. Swalwell, is recognized 
for his questions.
    Mr. Swalwell. Thank you, Mr. Chairman, and welcome back, 
Secretary Moniz. I want to first thank you for taking a trip 
out to Livermore, California, and visiting Lawrence Livermore 
and Sandia National Laboratories. The employees there greatly 
appreciated it, and in this time of sequestration and 
especially after the government shut-down, it was a boost in 
morale to have our Secretary of Energy come visit the 
scientists who are working at those laboratories to keep us 
safe but also to move us forward in our energy security 
pursuits.
    I want to also briefly mention the Neutralized Drift 
Compression Experiment II, or NDCX-II, which is a heavy ion 
fusion and basic science research tool. I am aware that earlier 
there were problems with standing up this project, but I am 
very pleased to hear that under a new management team at the 
Lawrence Berkeley lab and a peer-review path forward, that 
there is now potential to leverage the Federal investment 
already under way and for prodution of excellent science. And 
so I would like to commend the Department for working with 
NDCX-II to explore the benefits of furthering this operation.
    But as far as the budgeting goes, I want to talk about NIF, 
the National Ignition Facility at Lawrence Livermore. And I was 
pleased to see NIF was spared from further drastic cuts, and I 
hope you and the President will continue to provide adequate 
funding so that the groundbreaking science there can be 
achieved. And I wanted you to tell me your plans as to how the 
Office of Science can work more closely with NIF as we seek 
ignition.
    Secretary Moniz. Thank you. And by the way, let me just say 
the visit was terrific, and it is always fun to be at a lab, 
and the Livermore visit was great. I just want to note that it 
wasn't only me who went but my entire Secretary of Energy 
Advisory Board as well. And many of them had never seen NIF and 
were suitably impressed at its scale for sure.
    NIF is doing some very important work. It is providing very 
important contributions to our stewardship program. And we are 
making sure that we preserve at least some degree of some of 
the basic science work at NIF as well as at our other high-
energy density facilities which are really kind of a three-
some. NIF is by far the biggest but the Z machine and the Omega 
machine as well.
    In terms of the Office of Science, I think the first issue 
is, to be honest, until the ignition is achieved, then clearly 
the ideas of going into the fusion direction I think would be 
viewed as kind of premature. So I think that would be a very 
important milestone. As you know, progress towards that 
milestone is being made. Some substantial progress was made 
only in the last few months. We have to get there.
    Mr. Swalwell. And we look forward to having you out there 
when we reach ignition which we hope is soon----
    Secretary Moniz. That will be a good day.
    Mr. Swalwell. --rather than later. Also, I wanted to 
mention something that came to light yesterday, and I asked 
Members, Committee witnesses at the Homeland Security Committee 
hearing about this. We learned that just recently Al Qaida in 
their magazine, Inspire, used a picture of SFO airport and a 
message encouraging its members to detonate an explosive 
device. And it is not clear as to whether that was directed at 
SFO airport in the Bay Area or if it was just a general 
message. But it has raised concerns and reminds us that we 
remain under attack from Al Qaida, that they do seek to carry 
out a terrorist attack. And Lawrence Livermore and Sandia 
National Laboratories both do great work in protecting against 
the next attack. And I wanted to know how this budget will 
reflect our priorities of continuing to have our scientists not 
just do nuclear weapons stockpile stewardship but also work to 
prevent a terrorist attack and support law enforcement efforts.
    Secretary Moniz. Thank you. The nonproliferation budget, 
unfortunately, was reduced again within our constraints. Let me 
just stay without going into great detail that the stockpile 
stewardship plan that was submitted last year was budgetarily 
unrealistic, and we had to get that back under control while 
preserving our commitment to the stockpile basic plan, without 
going into detail, but what is relevant to this is that when we 
went through the process with the National Security Council and 
the Department of Defense, we came to a budget that we felt 
even though it reduced by over $1 billion the life extension 
program in the Fiscal Year 2017, Fiscal Year 2020 period by 
stretching out some programs consistent with military 
requirements, we just needed that increase in the weapons 
program; and then with the constrained Fiscal Year 050 budget, 
neither nonproliferation nor environmental management could 
come in at the same budget. Still a strong program, and the 
labs will be critical in securing nuclear materials--sources.
    Secondly, we are--in fact, right now there is an Academy 
study and there is other work that we are doing looking at 
streamlining what is currently called--a word I dislike to be 
perfectly honest--Work for Others, because they aren't others. 
They are part of our team, like the Department of Homeland 
Security. And as you know, Livermore, in particular, is 
probably our lead lab for working on the Homeland Security 
issues.
    So this is going to be a major focus, and again, we are 
balancing budget priorities within a fixed budget.
    Mr. Swalwell. Thank you, Mr. Secretary, and I yield back 
the balance of my time.
    Chairman Smith. Thank you, Mr. Swalwell. The gentleman from 
Arizona, Mr. Schweikert, is recognized.
    Mr. Schweikert. Thank you, Mr. Chairman. Mr. Secretary, as 
you have heard all the Members speak, we all have sort of our 
individual areas of interest or expertise. So I don't mean this 
to be more of an ethereal conversation, more to educate me. 
When you have so many priorities coming at you and we come at 
you and say, all right, this is basic research, this is applied 
research, this is for commercialization. How do you arbitrage 
those differences but also how do you sort of walk through and 
make your decision making? You know, just as the conversation 
we were just having we are all incredibly hopeful one day we 
will hit that moment of ignition and control and, you know, the 
Holy Grail is there. But if you are not there, you don't 
prioritize hope, you prioritize data. Tell me your process. How 
do you go through that sort of triage?
    Secretary Moniz. I wish it were completely organized, but I 
will do my best. First of all, as we have discussed here and on 
the stockpile, et cetera, as you know the Department of Energy 
has a pretty diverse set of responsibilities. But what I want 
to emphasize is the common theme is, and I will be immodest for 
the Department in saying, the Department is a science and 
technology powerhouse, and that is its fundamental core 
capability, and those are the capacities that are being applied 
to energy, to basic science, to nuclear security.
    Now, in each of those areas, and we did have our strategic 
plan put out last week, we try to keep focused on our major 
objectives. What is it that we have to accomplish in each of 
those major mission areas? We try to maintain a balance in 
terms of near, intermediate term and long-term focus. Generally 
speaking, the long-term focus when it comes to let us say, 
energy technologies, are probably more modest investments but 
very important to see something. An example I mentioned earlier 
is that we thought it was very important, even though it was 
only $15 million, to emphasize in the fossil energy budget, 
ramping up a program on methane hydrates. That is the analogy 
of I think what the Department did in 1979 that led to 
unconventional gas today.
    Mr. Schweikert. But what I am somewhat chasing is do you 
have a particular methodology? You know, do you sit down with a 
decision tree and say here is how we are going to do our 
priorities?
    Secretary Moniz. So the way it works is that the 
fundamental build-up, it starts bottom-up with our programs, 
and they will now essentially be starting the Fiscal Year 2016 
bottom-up build-up. That is within guidance that we give in 
terms of general set of priorities. They come back with their 
programs. We kind of aggregate them at the undersecretary 
level. So in this case the energy and science programs come 
together. Frankly, to be technical about it, in that process, 
they are assigned budget targets, and the Office of the 
Secretary maintains a reserve, if you like, to----
    Mr. Schweikert. Okay, so we----
    Secretary Moniz. --meet priorities.
    Mr. Schweikert. Okay. So we have our budget priorities, and 
then our technology priorities as coupled with that, I am 
trying to systematize it in my head. And within that, do you 
rank saying, okay, this is basic research, this is applied? How 
does sort of the matrix work out?
    Secretary Moniz. We are--again, it is imperfect, but we are 
looking at making sure we have a reasonable balance which 
certainly, for science, includes recognizing the critical role 
that we have in underpinning especially the physical science 
establishment. So we have to look at our user facility, our big 
budget item. That is a responsibility to the entire science 
community. So that is a very high priority.
    Mr. Schweikert. Now, how much flexibility do you actually 
have to pivot? And I don't know if this experience has actually 
happened where you have developed a line item, it is moving 
forward, and then all of a sudden in the literature, there is a 
private lab or some university lab that has actually leaped 
ahead of what you were going after, the ability to switch and 
move those resources somewhere else you consider either more 
promising or more worthy. Do you have that level of flexibility 
to make those decisions mid-stream?
    Secretary Moniz. Well, certainly over a period of a year or 
two. Now, in terms of a more rapid response, that depends in 
terms of how the appropriations language is written in the 
sense that, you know, obviously it directs us. But in the 
Office of Science I think there is a fair amount of flexibility 
in that regard, less so in some other parts of the Department.
    Mr. Schweikert. And the last question. Mr. Chairman, 
forgive me. I know I am going a little long. Part of my reason 
for my curiosity of building sort of that decisions matrix is 
we know we often get tugged with the current popular discussion 
or the current technological folklore. And sometimes that is 
just noise in the decision-making process and was just curious 
how you screen that out.
    Secretary Moniz. First of all, let me say, I would be happy 
to find some time to sit down so that we might learn something 
also from your ideas in terms of how we can manage this kind of 
portfolio balancing. But let me just say that fundamentally, it 
is using our judgment on portfolio balancing in multiple 
dimensions.
    Mr. Schweikert. Okay.
    Secretary Moniz. That is really the core principal.
    Mr. Schweikert. But in many ways is done through judgment, 
not necessarily sort of a----
    Secretary Moniz. Yeah, there is no----
    Mr. Schweikert. --hard----
    Secretary Moniz. --quantitative scoring.
    Mr. Schweikert. Okay.
    Secretary Moniz. Right, and it is not just me. It involves 
a collective discussion. We have open discussions, and people--
--
    Mr. Schweikert. Look, I know you have----
    Chairman Smith. The gentleman's time has expired.
    Mr. Schweikert. Okay, sorry. Sorry, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Schweikert.
    Mr. Schweikert. Thank you for your patience.
    Secretary Moniz. But we can follow up if----
    Chairman Smith. The gentleman from Texas, Mr. Veasey, is 
recognized.
    Mr. Veasey. Thank you, Mr. Chairman. I wanted to ask you a 
couple of questions about the coal because I know that that is 
an area where there is some, you know, disagreement on. In your 
opinion, has coal gone through the problems that it is going 
through because of what is going on in the market or because of 
what is going on within the Agency as far as the policy 
direction in which the agency, you know, sees coal? Could you 
kind of touch on that a little bit?
    Secretary Moniz. Well, over these last several years, as we 
know there has been a substantial substitution of natural gas 
for coal, and I would say that was principally driven by the 
market in terms of the low gas prices. Going ahead, there will 
be issues, for example, of how the EPA rules turn out, let us 
say, for new coal plants where, as you know, partial CO<INF>2</INF> 
capture is in the proposed rule.
    Mr. Veasey. Also, another coal question. I have heard that 
some people say we have as high as a 200-year supply of coal 
just in our country. Can coal be made clean enough to where it 
is a cleaner-burning fuel like the other things that we are 
looking at as far as renewables, natural gas, et cetera?
    Secretary Moniz. Well, of course, first of all, in terms of 
conventional pollutants, we have done a lot to clean that up as 
you know over the last decades. The challenge now is carbon 
dioxide, and there we have our eight major demonstration 
projects right now to pursue that. I personally believe there 
is nothing in the science that suggests that CCS or CCUS will 
not work at substantial scale, and then this question of what 
are we going to do in terms of CO<INF>2</INF> policy because 
clearly for a coal plant, it is not going to be less expensive 
to capture than not capture, but the question is, in the 
competition, we expect coal to have a marketplace role in a 
low-carbon environment through the successful higher efficiency 
of coal plants and CCUS.
    Mr. Veasey. If I could very quickly switch over to methane 
and, you know, as it pertains to natural gas in particular, you 
know, there has been some concern about, you know, the release 
of methane, you know, at the wells. What do you think can be 
done more to help ease that? Because obviously that everyone 
says that the natural gas is a much more cleaner-burning fuel. 
But with the methane being released, obviously that can create 
problems. And if you can capture the methane and stop it from 
releasing, obviously it would make it even more clean and more 
efficient. So can you just talk on that a little bit?
    Secretary Moniz. Sure. There is by the way an interagency 
methane group that is working, DOE, EPA, Department of 
Interior, USDA. There has been a lot of progress in most places 
in capturing methane from production because of course it is a 
valuable product, and in some cases it is also driving the 
replacement of large diesels to drive the hydraulic fracturing 
by natural gas engines which, again, are much cleaner, and so 
it helps the air quality in the production zones.
    We have a challenge in many places on the production side, 
like in the Bakken shale where the infrastructure fundamentally 
isn't there to move the gas out and so they are flaring a lot 
of it. But the state has made a strong commitment to lower 
that.
    But what I want to emphasize, and frankly it is a strong 
focus of the Department of Energy, is that--and more data are 
needed. But the methane issue has probably been overly focused 
on the production well as opposed to the end-to-end system. So 
the whole issue of the gathering, the transportation and the 
distribution systems for natural gas is an issue.
    We hosted a multi-stakeholder workshop, the first of five 
that we will have, on methane emissions recently involving 
industry, labor, environmental groups, et cetera. And it was 
very interesting. There was a lot of convergence there, and it 
is clear. One of the big challenges is, and it is not only for 
methane, is that we have a very old natural gas distribution 
infrastructure, for example, in many of our cities. We saw a 
tragedy in New York not so long ago. And I think the issue is 
jobs as well. Let us get a modern infrastructure built, and 
that will take care of the methane leaks as well.
    So those are some of the ways we are thinking about it.
    Mr. Veasey. Okay. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Veasey. The gentleman from 
North Dakota, Mr. Cramer, is recognized.
    Mr. Cramer. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary. I am delighted to hear of your continuing commitment 
to putting research dollars into carbon capture, especially 
into using that carbon to enhanced oil recovery because, of 
course, in North Dakota, any research that has as its ultimate 
goal extending the life of our coal mines and our Bakken oil 
patch is a noble goal indeed. So I thank you for that.
    I just hope that we can put enough research dollars into 
DOE to keep up with the rules at the EPA so we don't get the 
rule ahead of the research.
    I want to ask you specifically, though, you referenced 
earlier a little bit about efficiency, and I want to focus 
specifically on turbine efficiency and the role that might have 
in producing, well, putting us at a global advantage for lots 
of things, not the least of which is by the way the 
manufacturing sector and manufacturing the turbines that might 
can get us another percent or two or three. And with gas 
becoming more and more important and a more and more important 
fuel, for generating electricity, I would like you to speak 
specifically if you would to research that enhances gas 
efficiency for generating electricity.
    Secretary Moniz. Certainly. And by the way, I might add, 
going back to your prologue, of course, with the Great Plains 
Plant----
    Mr. Cramer. Yes.
    Secretary Moniz. --I think they have now passed 20 megatons 
of CO<INF>2</INF> for enhanced oil recovery in the Weyburn 
field. So it is quite a----
    Mr. Cramer. That is true.
    Secretary Moniz. Quite a large amount over the last ten 
years or so. On turbine efficiency, the Department really going 
back to the '90s had a very, very major program on increased 
Turbine efficiency that was done with--I think the main 
programs were with GE and with Siemens leading both of them to 
now commercialize. I think it is called the F-turbine series. 
So those were a substantial job in efficiency. I think they are 
now getting into the marketplace, and it is very impressive, 
certainly in combined cycle plants. Now I think you are talking 
over 60 percent efficiency. So it is a big deal.
    Mr. Cramer. Well, if we could squeeze another percent or 
two and get into the low 60s, I think it, my understanding is 
that it could make quite a massive difference.
    Secretary Moniz. Yeah, no, percent's here or there matter.
    Mr. Cramer. Yeah, they sure do. I want to focus on 
something a little different now. A couple of years ago, I 
think two years ago this month actually, the Administration or 
the President actually signed an executive order forming the 
Interagency Working Group on research for hydraulic fracturing, 
and at the time it was announced that there would be a research 
plan developed by the agencies included, of course the 
Department of Energy, EPA, I believe the Geological Surveys, 
part of that. It was going to be presented to Congress in 
January. January came and went last year. January has come and 
gone this year. We are now into the blossom season here in 
Washington, D.C. I am just wondering if you could give us some 
idea of when we will see that plan?
    Secretary Moniz. Okay. I will certainly look into that 
right after the hearing. There is a very active group with DOE 
involved in these unconventional gas technologies. I certainly 
have seen a research agenda there, so let me just look into 
that and see if we can't get something to you.
    Mr. Cramer. Well, I know. I think the promise was that 
Congress would be presented with a research plan from the 
working group. We have not seen that.
    Secretary Moniz. I hear you.
    Mr. Cramer. So we----
    Secretary Moniz. So let me look into that.
    Mr. Cramer. Okay. We will look forward to----
    Secretary Moniz. Because there certainly is an R&D agenda 
that I have seen there.
    Mr. Cramer. Well, I appreciate that. And Mr. Chairman, I 
yield back the balance of my time. Thank you.
    Chairman Smith. Okay. Thank you, Mr. Cramer. The gentleman 
from Massachusetts, Mr. Kennedy, is recognized for any 
questions except those dealing with offshore wind.
    Mr. Kennedy. Thank you, Mr. Chairman. I appreciate the 
time. Mr. Secretary, it is great to see you again. It is always 
good to see a constituent. So thank you for your service.
    I want to follow up a little bit about some of those issues 
that we have talked about before but predominantly clean energy 
and--we will leave it broad for that. But nevertheless, the 
Department of Energy's budget proposal, Mr. Secretary, as you 
know, continues to support an all-of-the-above energy strategy, 
and you spoke about this a little bit a couple minutes ago. 
Specifically, it also increases funding for clean and renewable 
energy programs. The clean energy sector has huge implications 
in both short and long run.
    In the long run, I think we could make huge strides in 
protecting our environment and minimizing the negative impact 
of human interaction with our environment. If these renewable 
technologies are brought to scale, it could also significantly 
address an issue that we constantly hear from our constituents 
back home about ever increasing energy prices.
    I would like to focus however, briefly, if I could with 
you, Mr. Secretary, on the shorter term economic implications 
of investing in clean energy technologies. As you well know, my 
district and yours is home to a number of communities that are 
already taking on some of these risks. A recent report from the 
Massachusetts Clean Energy Center notes that Southeastern 
Massachusetts and your hometown of Fall River is right at the 
center of it, it is now one of the fastest-growing regions in 
the Commonwealth with clean energy employment, with an increase 
of 14.3 percent from 2012 to 2013 representing over 17,000 
jobs. That is a real impact right now.
    With this budget, the Administration is recognizing this 
opportunity. So in that framework, I have got three questions 
for you, sir. First, what can we expect from the Department of 
Energy's efforts to invest in these types of technologies? 
Second, what results should we realistically be able to achieve 
if we funded this proposal in full. And third, how can we 
prepare to develop a top-notch clean energy workforce to help 
keep these jobs right here at home? Thank you.
    Secretary Moniz. Thank you. Let me try to take those three 
on. Well, I will kind of all put them all together I guess. So 
first of all, the issue of the jobs, in the energy sector in 
general and in the clean energy sector in particular, clearly 
are increasing. I think for example in solar energy where up to 
like 150,000 there, and that is just only one sector. In wind, 
by the way, where you can make the translation of jobs based on 
groth we have gone in a relatively short time from the United 
States providing about 25 percent of the supply chain for wind 
turbines deployed in the United States to now over 70 percent. 
So that is, again--manufacturing, installation, all these kinds 
of jobs are happening. So the programs themselves will continue 
to stimulate jobs and to stimulate manufacturing.
    Now, in that context, another element is our focus in 
laying the foundation for the critical technologies for our 
future manufacturing capabilities in clean energy and other 
things. So for example, the Department of Energy and DOD did 
the first manufacturing institute on 3-D printing. The 
Department of Energy did another one ourselves on high-powered 
electronics, which affects many parts of the energy technology 
space. We have announced a third one on light-weight composite 
materials. Many applications, vehicles, wind turbine blades, et 
cetera. So that is a second.
    A third element is in our budget proposal, we want to start 
something I mentioned it a little bit earlier, NIH-type 
traineeships. This is going to the human resources now, 
traineeships that focus on specific areas of human resource 
need in this country, like power electronics, like people who 
really know high-performance computing, algorithm development, 
areas like that. So targeted sectors where we need more of our 
people engaged.
    Mr. Kennedy. Thank you, Mr. Secretary, and I appreciate 
your plug for, which I am not sure if you knew, our 
manufacturing bill that we had a hearing on here in this 
Committee. It has got great bipartisan support with Congressman 
Tom Reed as well a number of bipartisan co-sponsors, up to 
about 60 or so. So hopefully some of our other colleagues will 
sign on. Thank you for your time, sir. Mr. Chairman, I yield 
back.
    Chairman Smith. Thank you, Mr. Kennedy. The gentleman from 
Texas, Mr. Weber, is recognized for his questions.
    Mr. Weber. Thank you, Mr. Chairman, and Dr. Moniz, thank 
you for being here. Do you know where the largest CCSS facility 
is in the country?
    Secretary Moniz. In this country, it is probably in Texas, 
and certainly the largest CO<INF>2</INF> EOR place in the 
country is in West Texas, I think.
    Mr. Weber. Right, but for the carbon capture and 
sequestration storage, or what you would call carbon capture 
and utilization storage facility, do you know where the largest 
one is?
    Secretary Moniz. Right now it is right in the Houston 
Channel, I believe.
    Mr. Weber. Well, no, it is actually in my district.
    Secretary Moniz. Oh, I am sorry. Wrong district.
    Mr. Weber. I know that is a shocker for you. Yeah, just 
east of that small town of Houston which is one of our 
suburbs----
    Secretary Moniz. Okay.
    Mr. Weber. --over in the Beaumont, Port Arthur area.
    Secretary Moniz. That is what I meant, Port Arthur.
    Mr. Weber. I knew that. You just spelled it differently.
    Secretary Moniz. That is right.
    Mr. Weber. So do you have any idea what the cost of that 
facility was?
    Secretary Moniz. No, I do not, sir.
    Mr. Weber. It was about $440 or $460 million as I recall, 
in the mid-400s. Do you know what the Department of Energy's 
kick in to that was, how much money they supplied to Air 
Products, Incorporated?
    Secretary Moniz. Not precisely.
    Mr. Weber. Sixty percent, about 200. If you just took $400 
million, it would be $240 million. It is going to be a little 
bit more than that. I don't believe that that kind of project 
is duplicable. You can't duplicate that. You know, we had the 
chairman from Southern Energy come in and talk about the plant 
they are building in Mississippi, and there is no way that we 
can, as rational people say, that that is a sustainable 
economic business, viable business project when the taxpayers 
are having to support it to the tune of 60 percent. Would you 
agree with that?
    Secretary Moniz. Well, I think we need the context, 
however, that these are first mover plants, and the expectation 
is costs will come down as more of these----
    Mr. Weber. Do you know how long it has been in operation?
    Secretary Moniz. I thought it was like one year.
    Mr. Weber. It has been a little over a year they opened up. 
I was there for the grand opening.
    Secretary Moniz. Yeah.
    Mr. Weber. But when you have got other plants looking at 
this and saying there is no way, trust me, they are studying 
that bottom line, and that is cost in that balance sheet. And 
they are saying there is no way they can duplicate this. I just 
want to make sure you know. I believe that the United States is 
poised on the verge of an energy renaissance, but I also 
believe that the current energy policy, and that is the 
Department of Energy, their current policy is going to keep us 
from being able to realize as much of that energy renaissance 
as we might have and could ultimately affect national security.
    So here is my question for you. Have you read the State 
Department's study on the Keystone pipeline, the report?
    Secretary Moniz. I have not read the full report. I read 
the summary----
    Mr. Weber. You read the summary----
    Secretary Moniz. --of the EIS.
    Mr. Weber. --of it? Are you aware that some seven Federal 
agencies, U.S. Army Corps of Engineers, Department of Ag, 
Department of Energy, Department of Interior, Transportation, 
Office of Pipeline and Safety, the U.S. EPA and various state 
and local agencies contributed to that report? Did you know 
that?
    Secretary Moniz. Yes.
    Mr. Weber. Including of course the Department of Energy?
    Secretary Moniz. Yes.
    Mr. Weber. Do you agree with the findings of that report?
    Secretary Moniz. Well, we are in the process right now of 
making our comments in the 90-day comment period. So I think I 
have to leave it at that for the moment.
    Mr. Weber. But you were a part of that report. So when----
    Secretary Moniz. Our office supplied technical support.
    Mr. Weber. Okay. Did you do a good job?
    Secretary Moniz. I think so.
    Mr. Weber. Okay. Well, then that report should be a good 
report.
    Secretary Moniz. For at least our part of it.
    Mr. Weber. Okay. All right. Touchhe. So does the Department 
of Energy ever give thought or study to the greenery, the 
environment, the trees, the grass on their ability to take 
CO<INF>2</INF> and to use it in photosynthesis and ingest, you 
know, how they use CO<INF>2</INF>, Plants take that and make 
oxygen. Are you studying the ability of the environment going 
forward to be able to synthesize if you will that CO<INF>2</INF> 
or are you just studying the output of the CO<INF>2</INF> from 
the various sources?
    Secretary Moniz. No, no, there are a variety of efforts in 
terms of understanding and maybe engineering some of the up-
take in land use systems.
    Mr. Weber. Okay. Do you agree with my idea, my statement, 
that our energy policy may be hampering that energy renaissance 
and that could affect our national security?
    Secretary Moniz. No, I do not, sir.
    Mr. Weber. You don't agree?
    Secretary Moniz. No.
    Mr. Weber. The President said during his----
    Secretary Moniz. I would argue by observation we are doing 
pretty well on the renaissance.
    Mr. Weber. Well, I think we could do better. We would love 
to get the Keystone Pipeline down into my district. And so when 
the President said under his energy policy, electricity prices 
would of necessity skyrocket, have you seen that video, that 
YouTube?
    Secretary Moniz. No, I have not.
    Mr. Weber. I think he is making good on that claim, but I 
think it is at our expense.
    Secretary Moniz. Well, of course, our job as we have always 
said is fundamentally--the aim of our innovation programs is 
continued cost-reduction of technologies, especially low-carbon 
technologies.
    Mr. Weber. Okay. Mr. Chairman----
    Secretary Moniz. Which would include CCS and others.
    Mr. Weber. Yeah, it is just not duplicable. Mr. Chairman, I 
yield back.
    Chairman Smith. Thank you, Mr. Weber. Let me say to Members 
that we are going to recess after Ms. Brownley asks her 
questions and Chris Collins asks his questions, and we will 
recess until noon, and we expect the votes to be over. 
Secretary Moniz can stay until 12:30. So between 12:00 and 
12:30 I believe Members who have not asked questions will have 
an opportunity to do so, and we will be able to accommodate all 
Members.
    The gentlewoman from California, Ms. Brownley, is 
recognized for her questions.
    Ms. Brownley. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for joining us today. My questions concern the 
Environmental Management account and the ongoing clean-up of 
Area 5 of the Santa Susana Field Lab which is in my district. 
Clean-up at Santa Susana is of critical importance to my 
constituents and has been for decades. It is undisputed that 
toxic chemicals were used, spilled and dumped at Santa Susana. 
It is imperative that we eliminate the potential and 
significant health and safety risk for people who will continue 
to live nearby and those who will be using the site in future 
years.
    Any clean-up to less than background levels will leave both 
radioactive and chemical contamination in place regardless of 
the end-use of the property which, at this point, is undecided.
    So my question is, is the Department of Energy fully 
committed to adhering to the 2007 Consent Order for Corrective 
action and the 2010 Administrative Order on Consent with the 
State of California?
    Secretary Moniz. Yes. My understanding is that we are 
developing the required EIS, it is moving along and expect to 
have that available, that draft, late this year or very early 
in 2015.
    Ms. Brownley. So you are on track for early '15? I think it 
was supposed to be completed----
    Secretary Moniz. Correct.
    Ms. Brownley. --by September?
    Secretary Moniz. Yeah. Well, maybe late this year. We are 
trying.
    Ms. Brownley. Okay. But by 2015 you believe----
    Secretary Moniz. Early.
    Ms. Brownley. Early.
    Secretary Moniz. Early 2015, preferably late this year.
    Ms. Brownley. Thank you, sir. And in the 2014--well, in 
2014 Congress provided approximately $9.4 million for the 
clean-up and in the 2015 request asked for only $8.96 million 
which is a reduction of about almost $450,000. So my question 
is, has the Department of Energy requested reduced funding?
    Secretary Moniz. Well, yes, obviously we proposed a few 
percent reduction. I mean, this is consistent with what we had 
to across the board because of the constrained caps. I mean, in 
our overall EM budget, we had to come down $200 million. But 
within this budget, we will complete the draft EIS. We will 
start the final EIS. We will submit the conceptual ground water 
model report. I think we can accomplish a lot in Fiscal Year 
2015.
    Ms. Brownley. Okay. And so there is a list of milestones 
proposed for 2015. You have mentioned some of them, the draft 
EIS, completing ground water characterization, submitting a 
final remediation plan and a conceptual ground water report to 
state regulators. So you feel the budget is sufficient to 
accomplish those goals?
    Secretary Moniz. I think we can. It is always tight, and a 
little more money would help. But again, this is just in the 
context of--this is frankly like an across-the-board haircut 
that we had to take in the end.
    Ms. Brownley. Understood, and I appreciate your answers and 
appreciate your commitment to this. This is an issue that I 
have worked on for a very long time when I was in the State 
Legislature and now here in Congress, and I can't underscore 
how important it is to Southern California and particularly to 
my constituents. So I appreciate your focus and commitment.
    Secretary Moniz. Thank you.
    Ms. Brownley. Thank you. I yield back, Mr. Chairman.
    Mr. Collins. Thank you. I will be the last one, Mr. 
Secretary. Then we will go through the recess. My question 
concerns the loan guarantee program and in particular, you 
know, I live in a world where actions speak a lot louder than 
words. And we have loan guarantees for renewables. We have loan 
guarantees for fossil fuel programs. Frankly, some of the 
actions that we have seen including what I will call the gross 
negligence on the due diligence on Solyndra. I have spent 30 
years in the private equity world. I know due diligence, and I 
have to say, on that one, and I don't want to beat a dead 
horse, it was pretty obvious that the Administration was 
looking to approve something frankly absence due diligence.
    But right now my concern is the $8 billion fossil loan 
guarantee program which closed on February 28. And we saw some 
of those projects appear to be ones that were submitted in the 
past. They languished. They were anything but fast-tracked. 
Actions seem to indicate to many of us the Administration is 
picking winners and losers. They are picking renewables over 
fossil. They are fast-tracking, absent due diligence, on 
renewables while good fossil programs languish. That is what 
our observations based on results would indicate.
    So frankly, with the February 28 date, have any of these 
fossil grants been approved?
    Secretary Moniz. Well, no. But first of all, I want to 
emphasize that the program is not closed. This is kind of a 
rolling set of applications, though.
    Mr. Collins. So we had the ones that----
    Secretary Moniz. So that was the first----
    Mr. Collins. --were due----
    Secretary Moniz. Yeah.
    Mr. Collins. --February 28.
    Secretary Moniz. That was the first date.
    Mr. Collins. Yes.
    Secretary Moniz. And there will be other dates moving 
forward. Secondly, there are some earlier applications. One in 
particular was mentioned earlier, coal to liquids, which was 
dramatically changed by the proposers, and they have been 
notified that that is going into--well, they were offered to go 
into the next stage of due diligence, and they have accepted, 
and so that is now into due diligence. And there were some new 
proposals that came in as well that I can't discuss at the 
moment.
    I must say, obviously I have been at the Department for, I 
don't know now, 11 months I guess, counting on 11 months. And 
the current director of the Loan Program Office, Peter 
Davidson. I would love to get you two together to discuss the 
program if that is of interest and given your background. But I 
think he is very competent, and I have to say, I believe that 
this group is very competent in their due diligence, and I 
think we could demonstrate that.
    Mr. Collins. Well, can we expect to see a number of 
programs on the fossil program that were completed in February, 
approved in a rolling method?
    Secretary Moniz. Well, that is our intent.
    Mr. Collins. Okay.
    Secretary Moniz. But again, we will not approve projects 
just to hit $8 billion. We will only approve projects if----
    Mr. Collins. Okay. No, I understand----
    Secretary Moniz. --if they do not do due diligence.
    Mr. Collins. --but again, the past would indicate in 
renewables, in fact, the Department prior to your heading it 
did approve projects for the purpose of approving projects 
absent due diligence----
    Secretary Moniz. Well, but he----
    Mr. Collins. --or Solyndra never would have occurred so----
    Secretary Moniz. Well, sir, again, without getting into 
Solyndra specifically, I can say that a lot of other renewables 
projects have been very, very successful. One example we like 
to quote is in 2009, 2010, as you well know, when debt 
financing was particularly difficult, the first five utility-
scale photovoltaic projects were given loan guarantees. They 
are all performing, they all have PPAs----
    Mr. Collins. Well, again, no I understand that----
    Secretary Moniz. And----
    Mr. Collins. --and time is running short.
    Secretary Moniz. Oh.
    Mr. Collins. But let me ask you, have you done an after-
action look at Solyndra, what went wrong, what didn't happen, 
what should have happened. Have we learned from our mistakes?
    Secretary Moniz. I have not personally done that, but I 
believe that was done before my arrival and Solyndra was good--
--
    Mr. Collins. Well, I----
    Secretary Moniz. --very early in the program.
    Mr. Collins. I would appreciate if you could share with our 
Committee what that after-action found because the staggering 
amount and the fact that, quite frankly, it has become, you 
know, the stalking horse that we talk about. It would make I 
know me and others feel good if we would learn from the 
mistakes. That was a very costly waste of taxpayer dollars. Let 
us hope we get some value out of it to learn from.
    Secretary Moniz. Yeah, if I may just add that it is because 
I don't want to tie it to the one particular project, but I 
think the learning process in this group has been very, very 
clear and very, very substantial. I think they are an extremely 
strong group in this moment, and that came from lessons 
learned.
    Mr. Collins. All right. Well, I would like to see what we 
did. As I close up for right now before we recess, can you tell 
us the dollar amount of loan guarantees that have closed for 
renewables? The total.
    Secretary Moniz. The total amount.
    Mr. Collins. Yeah, the total dollar amount for renewables 
versus nuclear versus fossil, closed.
    Secretary Moniz. Well, what closed is $6.5 million on 
nuclear.
    Mr. Collins. Okay.
    Secretary Moniz. Roughly $8-plus billion on advanced 
vehicles. So that is say, $14, $15 billion. Subtract that from 
32. So we are at 14 probably renewables.
    Mr. Collins. And none for fossil?
    Secretary Moniz. Not yet. I don't believe any have closed 
on fossil yet, but that is the current call.
    Mr. Collins. Okay. Thank you. Thank you very much.
    Secretary Moniz. Yeah.
    Mr. Collins. The Committee will now stand in recess until 
after the beginning of the last vote. Thank you for all your 
patience.
    Secretary Moniz. Thank you.
    [Recess.]
    Chairman Smith. The Science, Space, and Technology 
Committee will reconvene. Secretary Moniz, several Members have 
come back from our series of votes, and I am glad they are 
here. And then I have an additional question for you about 
nuclear fusion after they have finished.
    And we will now turn to the gentlewoman from Massachusetts, 
Ms. Clark, for her questions.
    Ms. Clark. Thank you, Mr. Chairman, and thank you for the 
very gracious and warm welcome to this Committee. It is truly a 
privilege to be a part of it, and I thank you for that and also 
for having arranged at my first hearing we will have one of our 
most prestigious Bay Staters here with us.
    Chairman Smith. It was all intentional.
    Ms. Clark. Yes. Well, thank you. It is fantastic.
    Secretary Moniz. And a Red Sox fan.
    Ms. Clark. That is exactly right. And so thank you very 
much, Mr. Secretary. It is a pleasure to be here with you. And 
I had a couple of more general questions as I make my way 
around my incredible district and the work that is being done 
on energy, the life sciences and really that connection in 
Massachusetts between the academics and what we produce, what 
we research in the labs and our ability to take that to the 
marketplace.
    One of my questions for you comes out of what I am hearing 
has certainly been a focus of my colleague, Congressman 
Kennedy, and many others on this Committee is a focus on STEM 
education. And I was very heartened in your testimony when you 
mentioned your commitment really to keeping the United States 
as a global leader in high-performance computing. And some of 
these STEM programs that have been very vital to the work in 
Massachusetts, there have been many, but two in particular are 
the Computational Science Graduate Fellowships and also the 
graduate student research programs, both of which the budget is 
proposing to significantly cut. And I wondered if you could 
tell me a little bit about your thinking behind that and what 
some of the alternatives for those programs might be.
    Secretary Moniz. Thank you, and my I welcome you as well to 
Washington. First of all, in terms of graduate student support 
through research programs, that will continue in a very robust 
way that, you know, principally going through our research 
grants. On the fellowship side, again, the Administration has 
felt that it would be more efficient and effective to 
consolidate how fellowships are done which, for example, in our 
case the National Science Foundation being in the lead and that 
we will collaborate with them so that our areas of interest are 
addressed. But in that particular case, the computational 
science as I have said, that is one of the areas that we would 
like to use in this kind of pioneering effort this year, I mean 
Fiscal Year 2015, for the NIH-style traineeship programs which 
will focus on specific areas of national need of relevance to 
energy programs.
    So we will emphasize that, and if I may make one other 
comment more broadly on the STEM education, that is we two 
years ago started a Women in Clean Energy program. In my 
previous life at MIT, we were pleased to help that program go 
forward with a partnership, and then subsequent to my arrival 
last year, we started a similar Minorities in Energy program. 
And so another very important issue is that frankly, both women 
and minorities are underrepresented in the energy workforce 
today. It is opportunity for them, and it is need for us.
    Ms. Clark. Great. Thank you. You anticipated my second 
question. That is wonderful, and I see that my time is 
dwindling here, but I just want to also say that as we look at 
our clean tech and really look at that thriving industry in 
Massachusetts, there are some that say it is too soon, it is 
too immature of an energy to really have an energy technology 
to really have an impact on climate change and on reducing 
greenhouse emissions. And I certainly look forward to working 
with you to disproving that.
    Secretary Moniz. And we can't wait.
    Ms. Clark. Thank you very much.
    Secretary Moniz. Thank you.
    Chairman Smith. Thank you, Ms. Clark. The gentleman from 
Ohio, Mr. Johnson, is recognized for his questions.
    Mr. Johnson of Ohio. Thank you, Mr. Chairman, and again it 
is great to be serving on the Science and Technology Committee, 
and I would like to also welcome our colleague, Ms. Clark, to 
the Committee as one of the newest Members myself. It is good 
to have her aboard.
    Mr. Secretary, it is always good to see you.
    Secretary Moniz. Good to see you.
    Mr. Johnson of Ohio. There might be those that think you 
and I have a standing Thursday morning meeting because we have 
been meeting like this for a couple of weeks now. And I would 
like to start off today with a few questions on Yucca Mountain, 
Mr. Secretary. Your Department has repeatedly committed, both 
in Congressional hearings and in correspondence, that DOE would 
honor NRC's November 18th order and support the Yucca Mountain 
License Review. As recently as January 6, the DOE stated it 
would honor NRC's request to complete a ground water supplement 
to the Yucca Mountain EIS and indicated that it had taken steps 
to do so, including procuring contractor services and drafting 
a Notice of Intent.
    However, on February 28th, DOE notified NRC that it would 
not prepare the EIS supplement. Why did DOE change its mind 
over those seven weeks?
    Secretary Moniz. First of all, we are fully supporting the 
process, and what I had referred to in terms of contractor, et 
cetera, we are working very hard on the update of the ground 
water technical volume which is the essential input, and 
frankly, we think we are probably going to get that done this 
month, so pretty quickly. In the discussions in terms of 
actually running the process, we had discussions with 
Chairwoman McFarland. The view was--and in their request, it 
was made clear that that step could be done by either one of 
us, that as the adjudicator, then we felt it was better if they 
formally ran the process, but we fully support all of the 
information required. In fact, we were in the public hearing on 
Monday presenting the ground water technical process.
    Mr. Johnson of Ohio. Well, the NRC currently has a 
remaining nuclear waste fund balance of some $12.4 million, and 
it is not clear that NRC has enough funds to complete the EIS 
supplement and to complete the remaining safety evaluation 
report volumes. Won't your decision, the Department's decision 
force NRC to deplete its funds even faster?
    Secretary Moniz. We don't believe it is a material impact. 
I mean, what we are doing right now with the ground water 
technical analysis has required some funding which we have, and 
those remaining steps are not resource-intensive. But certainly 
we had no statement that that would create a problem.
    Mr. Johnson of Ohio. Well, I am just curious. If there was 
a question about who was responsible for doing the EIS, why did 
the DOE commit to doing it in the first place if now you are 
determining that it is best carried out by NRC?
    Secretary Moniz. Well, Pete Lyons wrote a letter as you 
said correctly in January stating that he would. Again, we had 
further discussions including my discussing with the chair of 
the NRC, and we just felt this was, in the end, this was a 
better approach.
    Mr. Johnson of Ohio. Well, given that DOE has a nuclear 
waste fund balance of about $44 million, wouldn't it be more 
cost effective for DOE to carry out that earlier commitment?
    Secretary Moniz. I have to check the exact numbers. I think 
our unobligated balances are something like $17 million I 
believe.
    Mr. Johnson of Ohio. My understanding is $44 million, but I 
mean, if you could get back to me on that, that would be great.
    Secretary Moniz. Well, I think the distinction is that the 
unobligated balances--I will get back to you precisely, but I 
believe it is $17 million. I believe the thought is that if 
called upon, we may be able to deobligate some other funds and 
bring them into this.
    Mr. Johnson of Ohio. All right. Well, Mr. Secretary, I 
enjoy working with you, and I like you. We have a good rapport, 
and I think that you are doing the best that you can in a tough 
situation. But from where we are sitting, it seems that there 
is an orchestrated campaign by Senator Reid and the 
Administration to run the funding dry at NRC so that they 
cannot complete the safety evaluation report. This I happening 
because once that safety evaluation report comes out saying 
that Yucca is safe for a million years, then opposition from 
Senator Reid will be made moot, and there will be no choice but 
to move forward with Yucca. Are we wrong in this assumption 
that there is pressure coming from the Senate Majority Leader?
    Secretary Moniz. I can flatly state that there was no 
consideration of that type in that decision about their 
completing that, because again, we are doing the lift in terms 
of the update of all the technical information.
    Mr. Johnson of Ohio. Okay. And my time has expired, and 
again, this is not personal because I enjoy working with you, 
Mr. Secretary. But we want to make sure that you and the NRC 
know that we are very carefully watching this process, and we 
are not going to allow any kind of outside influences to 
detract and delay the release of that safety evaluation report.
    Secretary Moniz. And if I may just again, we will, as we 
have said, we will execute the things that we need to do. The 
courts have ruled against the NRC in that case. But also I will 
just note that, as you all know, another court ruling which we 
have pursued is we submitted our letter on the waste fee 
following the court's dictate.
    Mr. Johnson of Ohio. Okay. Well, thank you, Mr. Secretary. 
Mr. Chairman, I yield back.
    Chairman Smith. Okay. Thank you, Mr. Johnson. Secretary 
Moniz, I was going to ask you a question about nuclear fusion, 
and I know you have an expert with you, the Acting Director of 
the Office of Science, but before she steps up, I now realize 
it would amount to probably an individual tutorial. And what I 
would like to do in lieu of getting into that right now is ask 
you if you would submit a report and give us an update on the 
progress we are making toward achieving nuclear fusion, and let 
me distribute it to all Committee Members. And that way 
everyone will benefit from your knowledge, and it just won't be 
an individual right now.
    So if we could do that, then we will momentarily stand 
adjourned. But thank you, Secretary Moniz, for being with us 
today. Thank you for being gracious with your time. And I have 
to say to you, you always give the impression, which I assume 
is an accurate one, of being forthright and basing your 
decisions more on data than something that might be influenced 
by politics. And we appreciate that.
    Secretary Moniz. We try.
    Chairman Smith. Thank you, Secretary Moniz.
    Secretary Moniz. Thank you, Mr. Chairman.
    Chairman Smith. And we stand adjourned.
    [Whereupon, at 12:20 p.m., the Committee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by The Hon. Ernest Moniz

[GRAPHIC] [TIFF OMITTED] 
                                 <all>
</pre></body></html>
